APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE F EDERAL C IRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA
MAYO MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
Decided: February 6, 2019
Before NEWMAN, LOURIE, and STOLL, Circuit Judges.
Opinion for the court filed by Circuit Judge LOURIE.
Dissenting opinion filed by Circuit Judge NEWMAN.
LOURIE, Circuit Judge.
Athena Diagnostics, Inc., Oxford University Innovation Ltd., and the Max-Planck-Gesellschaft zur
Forderung der Wissenschaften E.V. (collectively,
“Athena”) appeal from the order of the United States
District Court for the District of Massachusetts holding
that claims 6–9 of U.S. Patent 7,267,820 (the “’820 pa-

2a
tent”) are invalid under 35 U.S.C. § 101 and dismissing
Athena’s complaint under Rule 12(b)(6). Athena Diagnostics, Inc. v. Mayo Collaborative Servs., LLC, 275 F.
Supp. 3d 306 (D. Mass. 2017) (“Decision”). Because the
district court correctly concluded that the claims at issue are directed to a natural law and lack an inventive
concept, we affirm.
I.

BACKGROUND

Athena Diagnostics is the exclusive licensee of the
’820 patent, covering methods for diagnosing neurological disorders by detecting antibodies to a protein called
musclespecific tyrosine kinase (“MuSK”). ’820 patent
Abstract. Athena also markets a test called FMUSK
that functions by evaluating those antibodies. After
Mayo Collaborative Services, LLC (“Mayo”) developed
two competing tests that allegedly practice each step of
one or more claims of the ’820 patent, Athena accused
Mayo of infringing its patent. Mayo moved to dismiss
under Rule 12(b)(6), arguing that the asserted claims of
the ’820 patent were invalid under 35 U.S.C. § 101. The
district court granted Mayo’s motion, concluding that
the claims were invalid under § 101 for claiming ineligible subject matter. This appeal solely concerns whether claims 6–9 are patent eligible under § 101.
A.
Myasthenia gravis (“MG”) is a neurological disorder
where patients experience muscle weakness and symptoms including drooping eyelids, double vision, and
slurred speech. ’820 patent col. 1 ll. 13–23. It was previously discovered that MG is an autoimmune disease
caused by a patient generating antibodies against her
own acetylcholine receptors. Id. col. 1 ll. 24–26. Antibodies which recognize a person’s own proteins as for-

3a
eign antigens are known as autoantibodies. Id. col. 1 ll.
42–45.
About 80% of patients with MG produce acetylcholine receptor autoantibodies. Id. col. 1 ll. 34–36. The
other 20% do not, but they do experience the same MG
symptoms. Id. col. 1 ll. 36–38. The named inventors of
the ’820 patent discovered that many of the 20% of MG
patients without acetylcholine receptor autoantibodies
instead generate autoantibodies to a membrane protein
called MuSK. Id. col. 1 ll. 54–61. Prior to their discovery, no disease had been associated with MuSK. Id. col.
2 ll. 35–37.
Having discovered the association between MuSK
autoantibodies and MG, the inventors of the ’820 patent
disclosed and claimed methods of diagnosing neurological disorders such as MG by detecting autoantibodies
that bind to a MuSK epitope.1 Id. col. 2 ll. 61–65. Claim
1, not at issue in this appeal, is the only independent
claim and reads as follows:
1. A method for diagnosing neurotransmission
or developmental disorders related to [MuSK]
in a mammal comprising the step of detecting
in a bodily fluid of said mammal autoantibodies
to an epitope of [MuSK].
Id. col. 12 ll. 31–35. Claim 7 is at issue and depends
from claim 1. It recites:
7. A method according to claim 1, comprising
1

An epitope, also known as an antigenic determinant, is a
segment of a protein recognized by an antibody. See Bruce Alberts, Molecular Biology of the Cell 449–50 (6th ed. 2015). The
specification of the ’820 patent disclosed that autoantibodies in MG
patients recognize a MuSK epitope located on the protein’s extracellular aminoterminal domain. ’820 patent col. 1 ll. 54–57.

4a
contacting MuSK or an epitope or antigenic determinant thereof having a suitable label
thereon, with said bodily fluid,
immunoprecipitating any antibody/MuSK complex or antibody/MuSK epitope or antigenic determinant complex from said bodily fluid and
monitoring for said label on any of said antibody/MuSK complex or antibody/MuSK
epitope or antigen determinant complex,
wherein the presence of said label is indicative
of said mammal is suffering from said neurotransmission or developmental disorder related
to [MuSK].
Id. col. 12 l. 62–col. 13 l. 5 (spacing added). Claim 8 depends from claim 7 and recites that the label is a radioactive label. Id. col. 13 ll. 6–7. Claim 9 depends from
claim 8 and further recites that the radioactive label is
125I, a radioactive isotope of iodine. Id. col. 13 ll. 8–9.
We focus on claim 9, the most specific one at issue,
which requires: (1) contacting MuSK or an epitope
thereof having a 125I label, with bodily fluid; (2) immunoprecipitating any antibody/MuSK complex; and
(3) monitoring for the label on the complex, wherein the
presence of the label indicates the presence of a MuSKrelated disorder.
The specification of the ’820 patent further explains
what the steps of iodination and immunoprecipitation
entail. First, MuSK is iodinated using radioactive 125I.
Id. col. 10 ll. 50–52. Then iodinated MuSK is separated
from any free 125I by gel filtration. Id. col. 10 ll. 55–56.
Next, the 125I-labeled MuSK is added to a small volume of the patient’s bodily fluid and left overnight. Id.
col. 10 ll. 56–58. If MuSK autoantibodies are present in

5a
the patient’s bodily fluid, they will bind to the 125Ilabeled MuSK. Any 125I-labeled MuSK in the sample
is then immunoprecipitated by adding a secondary antibody that binds to any MuSK autoantibodies present.
Id. col. 10 ll. 58–60. The resulting precipitate is finally
centrifuged, washed, and counted for radioactivity,
which may be indicative of MG. Id. col. 10 ll. 60–61.
It is undisputed that iodination and immunoprecipitation were known techniques at the time of the invention. The ’820 patent specification states that “[t]he actual steps of detecting autoantibodies in a sample of
bodily fluids may be performed in accordance with immunological assay techniques known per se in the art,”
such as radioimmunoassays. Id. col. 3 ll. 33–37. With
respect to the relevant individual steps in the radioimmunoassay, the specification also discloses that
“[i]odination and immunoprecipitation are standard
techniques in the art.” Id. col. 4 ll. 10–11.
Claim 6 is additionally at issue in this appeal and
depends from claim 3. While claim 6 also involves detecting MuSK autoantibodies by contacting a patient’s
bodily fluid with MuSK or an epitope thereof, the labelling occurs somewhat differently than in claims 7–9.
Instead of labeling MuSK with a radioisotope, claim 3
recites that the secondary antibody is “tagged or labeled with a reporter molecule.” Id. col. 12 ll. 47–49.
Claim 6 additionally requires that “the intensity of the
signal from the [secondary] antibody is indicative of the
relative amount of the anti-MuSK autoantibody in the
bodily fluid when compared to a positive and negative
control reading.” Id. col. 12 ll. 57–61. This claimed
technique exemplifies the ELISA method,2 which, like
2

ELISA stands for enzyme-linked immunosorbent assay.
The technical details of this assay are not relevant to this appeal.

6a
radioimmunoassays, the ’820 patent specification lists
as an example of “immunological assay techniques
known per se in the art.” Id. col. 3 ll. 33–36.
B.
The district court concentrated its analysis on
claims 7–9. Athena did not present any arguments specific to claim 6. Applying the test for subject matter eligibility established by the Supreme Court in Mayo Collaborative Services v. Prometheus Laboratories, Inc.,
566 U.S. 66 (2012) and Alice Corp. v. CLS Bank International, 573 U.S. 208 (2014), the court first concluded
that the claims were directed to a law of nature, Decision, 275 F. Supp. 3d at 312. According to the court, the
claims focused on the interaction of 125I-labeled MuSK
with MuSK autoantibodies in bodily fluid, an interaction
which occurs naturally. Id. at 310. The district court
also determined that the claims lacked an inventive concept, as the recited steps involved only standard techniques in the art. Id. at 312–13.
The district court thus dismissed Athena’s complaint for failure to state a claim. Athena appealed. We
have jurisdiction under 28 U.S.C. § 1295(a)(1).
II. DISCUSSION
We review the district court’s dismissal for failure
to state a claim under regional circuit law. BASCOM
Glob. Internet Servs., Inc. v. AT&T Mobility LLC, 827
F.3d 1341, 1347 (Fed. Cir. 2016). The First Circuit reviews such dismissals de novo, accepts all well-pleaded
facts alleged in the complaint to be true, and draws all
reasonable inferences in favor of the non-movant. In re
Loestrin 24 Fe Antitrust Litig., 814 F.3d 538, 549 (1st
Cir. 2016). Patent eligibility under § 101 is a question of
law based on underlying facts, see Aatrix Software, Inc.

7a
v. Green Shades Software, Inc., 882 F.3d 1121, 1125
(Fed. Cir. 2018); Berkheimer v. HP Inc., 881 F.3d 1360,
1364–65 (Fed. Cir. 2018), that may be resolved on a
Rule 12(b)(6) motion when the undisputed facts require
a holding of ineligibility, SAP Am., Inc. v. Investpic,
LLC, 898 F.3d 1161, 1166 (Fed. Cir. 2018).
Section 101 provides that “[w]hoever invents or
discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful
improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of this title.” 35 U.S.C. § 101. Given the expansive terms of §
101, “Congress plainly contemplated that the patent
laws would be given wide scope”; some of the legislative history likewise indicated that “Congress intended
statutory subject matter to ‘include anything under the
sun that is made by man.’” Diamond v. Chakrabarty,
447 U.S. 303, 308–09 (1980).
Under the law as set forth by the Supreme Court,
§ 101, while broad, “contains an important implicit exception. ‘[L]aws of nature, natural phenomena, and abstract ideas’ are not patentable.” Mayo, 566 U.S. at 70
(alteration in original) (quoting Diamond v. Diehr, 450
U.S. 175, 185 (1981)). These exceptions exist because
monopolizing the basic tools of scientific work “might
tend to impede innovation more than it would tend to
promote it.” Id. at 71. However, the Supreme Court
has advised that these exceptions must be applied cautiously, as “too broad an interpretation of this exclusionary principle could eviscerate patent law.” Id.
Laws of nature are not patentable, but applications
of such laws may be patentable. A claim to otherwise
statutory subject matter does not become ineligible by
its use of a law of nature. See Diehr, 450 U.S. at 187;

8a
Parker v. Flook, 437 U.S. 584, 590 (1978). But, on the
other hand, adding “conventional steps, specified at a
high level of generality,” to a law of nature does not
make a claim to the law of nature patentable. Mayo,
566 U.S. at 82.
To distinguish claims to patent-eligible applications
of laws of nature from claims that impermissibly tie up
such laws, we apply the two-part test set forth by the
Supreme Court. First, we examine whether the claims
are “directed to” a law of nature. Alice, 573 U.S. at 217.
If they are, then we proceed to the second inquiry,
where we ask whether the limitations of the claim apart
from the law of nature, considered individually and as
an ordered combination, “‘transform the nature of the
claim’ into a patent-eligible application.” Id. (quoting
Mayo, 566 U.S. at 78). To so transform the claim, the
additional limitations must “ensure that the patent in
practice amounts to significantly more than a patent upon the natural law itself.” Mayo, 566 U.S. at 73.
We first address claims 7–9 and then turn to claim 6.
A.
Athena argues that claims 7–9 are not directed to a
natural law at step one because they recite innovative,
specific, and concrete steps that do not preempt a natural law. Rather, Athena contends that the claims are
directed to a new laboratory technique that makes use
of man-made molecules.
Mayo responds that the claims are directed to a
natural law: the correlation between naturallyoccurring MuSK autoantibodies and MuSK-related
neurological diseases like MG. According to Mayo, the
remaining steps apart from the natural law are concededly standard immunoassay techniques that still leave

9a
the claim directed to a natural law. Indeed, Mayo argues that the specificity and concreteness of the
claimed steps are irrelevant to whether a claim is directed to a natural law. And, as in Mayo, Mayo contends that it makes no difference to eligibility that the
claimed diagnostic method uses man-made materials.
We ultimately agree with Mayo that, under Mayo,
the claims are directed to a natural law. As an initial
matter, we must identify what the relevant natural law
is. Here, it is the correlation between the presence of
naturally-occurring MuSK autoantibodies in bodily fluid and MuSK related neurological diseases like MG.3
This correlation exists in nature apart from any human
action. There can thus be no dispute that it is an ineligible natural law.
However, as Athena correctly observes, not every
claim that involves a natural law is directed to a natural
law. “[A]ll inventions at some level embody, use, reflect, rest upon, or apply laws of nature, natural phenomena, or abstract ideas.” Mayo, 566 U.S. at 71. The
Supreme Court’s two-step test thus “plainly contemplates that the first step of the inquiry is a meaningful
one, i.e., that a substantial class of claims are not directed to a patent-ineligible concept.” Enfish, LLC v.
Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir. 2016).

3

We note that the district court held that the “focus of the
claims” was the binding of MuSK to MuSK antibodies in bodily fluid. Decision, 275 F. Supp. 3d at 310. Our cases have not described
a claim to the binding of two molecules during a sequence of chemical manipulations (here, after MuSK labeling and before immunoprecipitation) as a claim to a natural law, even if such binding occurs according to natural laws. We need not resolve that issue
here, as we agree with Mayo’s identification of the natural law.

10a
The step one “directed to” inquiry focuses on the
claim as a whole. E.g., Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016). To determine whether a claim is directed to an ineligible concept, we have frequently considered whether the
claimed advance improves upon a technological process
or merely an ineligible concept, based on both the written description and the claims. See Cleveland Clinic
Found. v. True Health Diagnostics LLC, 859 F.3d 1352,
1361 (Fed. Cir. 2017); Rapid Litig. Mgmt. Ltd. v.
CellzDirect, Inc., 827 F.3d 1042, 1047–49 (Fed. Cir.
2016); Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788
F.3d 1371, 1376 (Fed. Cir. 2015); see also McRO, Inc. v.
Bandai Namco Games Am. Inc., 837 F.3d 1299, 1314–
15 (Fed. Cir. 2016); Elec. Power Grp., 830 F.3d at 1354.
For example, in CellzDirect we considered claims
that covered a method for producing a preparation of a
type of liver cell (called hepatocytes) that involved multiple freeze-thaw cycles. 827 F.3d at 1046, 1048. Although the inventors discovered the cells’ ability to survive multiple freeze-thaw cycles, a discovery that the
district court understood to be a natural law, we concluded that the claims were not directed to that natural
law. Id. at 1048–50. This was because the claims as a
whole recited “a new and improved way of preserving
hepatocyte cells for later use,” “not simply an observation or detection of the ability of hepatocytes to survive
multiple freeze-thaw cycles.” Id. at 1048. The claimed
advance harnessed a natural law to produce a technological improvement that was patent eligible. See id. at
1048–49; see also, e.g., Enfish, 822 F.3d at 1335–39
(holding improvement in computer-related technology
not directed to abstract idea).
In contrast, in Cleveland Clinic we reiterated that
claims that merely recite observing naturally occurring

11a
biological correlations “with no meaningful non-routine
steps in between” are directed to a natural law. 859
F.3d at 1361; see Ariosa, 788 F.3d at 1376. There, the
specification indicated that the claimed inventors discovered a natural correlation between a molecule called
MPO and cardiovascular disease. Cleveland Clinic, 859
F.3d at 1360–61. The claims at issue recited detecting
MPO or other MPO-related products in a patient sample and then predicting a patient’s risk of having or developing cardiovascular disease. Id. at 1361. As the
claims only covered the correlation between MPO and
cardiovascular disease, an ineligible discovery, together
with “well-known techniques to execute the claimed
method,” we held that the claims were directed to a
natural law. Id.
The claims at issue here involve both the discovery
of a natural law and certain concrete steps to observe
its operation. Claim 9, the most specific claim at issue,
recites the following method to detect MuSK autoantibodies: (1) mixing MuSK or an epitope thereof having a
125I label with bodily fluid; (2) immunoprecipitating
any resulting antibody/MuSK complex; and (3) monitoring for the label on the complex. ’820 patent col. 12 l.
62–col. 13 l. 9. The claim then concludes in the wherein
clause with a statement of the natural law, i.e., the discovery that MuSK autoantibodies naturally present in a
patient sample, detected with the 125I label bound to
the MuSK/antibody complex, indicate that the patient
is suffering from a MuSK-related neurological disorder.
Id. col. 13 ll. 2–5.
As in Cleveland Clinic and Ariosa, we conclude that
claims 7–9 are directed to a natural law because the
claimed advance was only in the discovery of a natural
law, and that the additional recited steps only apply conventional techniques to detect that natural law. The

12a
specification of the ’820 patent highlights the discovery
of the natural law, explaining that “[t]he present inventors surprisingly found that many of the 20% of MG patients [who] do not exhibit any autoantibodies to [the acetylcholine receptor], instead have ... antibodies directed
against the extracellular [amino]-terminal domains of
MuSK.” Id. col. 1 ll. 54–57. Further, the specification describes the claimed concrete steps for observing the natural law as conventional. It teaches that “[t]he actual
steps of detecting autoantibodies in a sample of bodily
fluids may be performed in accordance with immunological assay techniques known per se in the art,” including
radioimmunoassays and ELISA. Id. col. 3 ll. 33–37.
Likewise, the specification identifies “[i]odination and
immunoprecipitation” as “standard techniques in the
art.” Id. col. 4 ll. 10–12. The ’820 patent thus describes
the claimed invention principally as a discovery of a natural law, not as an improvement in the underlying immunoassay technology. Consistent with the specification, the claims are directed to that law.
Athena argues that the claims at issue, like the
claims in CellzDirect, are directed to an innovative laboratory technique, not a law of nature. However,
Athena does not point to any innovation other than its
discovery of the natural law. CellzDirect did not suggest that appending standard techniques to detect a
natural law rendered claims not directed to a natural
law; rather, we expressly distinguished the eligible
claims in that case from ineligible claims that “amounted to nothing more than observing or identifying the
ineligible concept itself.” 827 F.3d at 1048. In that
case, we concluded that the “end result” of the claims at
issue was “not simply an observation or detection” of a
natural law. Id. We cannot so conclude here, since the
claims before us only involve detecting a natural law

13a
“with no meaningful non-routine steps.”
Clinic, 859 F.3d at 1361.

Cleveland

Athena also points to the specificity of the claimed
concrete steps, contending that they preempt no natural
law and therefore the claims cannot be directed to a natural law. Although we agree that claim 9 leaves open to
the public other ways of interrogating the correlation
between MuSK autoantibodies and MuSK-related disorders without practicing the claim’s concrete steps, that
does not disturb our conclusion at step one. Preemption
is sufficient to render a claim ineligible under § 101, but
it is not necessary. Flook, 437 U.S. at 589-90 (holding
claim involving mathematical formula invalid under § 101
that did not preempt a mathematical formula); Ariosa,
788 F.3d at 1379; In re BRCA1- & BRCA2-Based Hereditary Cancer Test Patent Litig., 774 F.3d 755, 764 n.4
(Fed. Cir. 2014). The claims here are directed to a natural law because they recite only the natural law together
with standard techniques for observing it. That the routine steps are set forth with some specificity is not
enough to change that conclusion.
Finally, Athena argues that the claims at issue differ from prior diagnostic claims we have held ineligible
under § 101 because they require labeling MuSK with a
manmade substance. We disagree. As Mayo argues,
the use of a man-made molecule is not decisive if it
amounts to only a routine step in a conventional method
for observing a natural law. For example, Mayo involved claims requiring administering a man-made
molecule (a drug “providing” 6-thioguanine) to a patient. 566 U.S. at 74–75. Some of the claims in Ariosa
likewise required amplification through the polymerase
chain reaction, which makes use of manmade reagents,
see U.S. Patent 6,258,540 col. 5 ll. 6–26, or using a specific probe that binds to DNA, 788 F.3d at 1374. And

14a
the claims in BRCA1 also involved hybridizing a synthetic DNA probe to a DNA strand. BRCA1, 774 F.3d
at 763–64. Nonetheless, in each of these cases either
the Supreme Court or this court held the claims directed to a natural law and invalid under § 101. Mayo,
566 U.S. at 92; Ariosa, 788 F.3d at 1380; BRCA1, 774
F.3d at 765. We thus reaffirm that use of a man-made
molecule in a method claim employing standard techniques to detect or observe a natural law may still leave
the claim directed to a natural law.
We consider it important at this point to note the
difference between the claims before us here, which recite a natural law and conventional means for detecting
it, and applications of natural laws, which are patenteligible. See Vanda Pharm. Inc. v. West-Ward Pharm.
Int’l Ltd., 887 F.3d 1117, 1133–36 (Fed. Cir. 2018) (holding that method of treatment by administering drug at
certain dosage ranges based on a patient’s genotype
was not directed to a natural law). Claiming a natural
cause of an ailment and well-known means of observing
it is not eligible for patent because such a claim in effect
only encompasses the natural law itself. But claiming a
new treatment for an ailment, albeit using a natural
law, is not claiming the natural law.
As we conclude that claims 7–9 are directed to a
natural law, we turn to the second step of the
Mayo/Alice test.4

4

The dissent states much that one can agree with from the
standpoint of policy, and history, including that “the public interest is poorly served by adding disincentive to the development of
new diagnostic methods.” Dissent at 12. We would add further
that, in our view, providing patent protection to novel and nonobvious diagnostic methods would promote the progress of science
and useful arts. But, whether or not we as individual judges might

15a
B.
At step two, “we consider the elements of each
claim both individually and ‘as an ordered combination’
to determine whether the additional elements ‘transform the nature of the claim’ into a patent-eligible application.” Alice, 573 U.S. at 217 (quoting Mayo, 566
U.S. at 78, 79). “Purely ‘conventional or obvious’ ‘[pre]solution activity’ is normally not sufficient to transform
an unpatentable law of nature into a patent-eligible application of such a law.” Mayo, 566 U.S. at 79 (alteration in original) (quoting Flook, 437 U.S. at 590). The
transformative “inventive concept” supplied by the
claim elements not drawn to ineligible subject matter
must be “sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.” Alice, 573 U.S. at 217–18
(quoting Mayo, 566 U.S. at 73).

agree or not that these claims only recite a natural law, cf. Berkheimer v. HP Inc., 890 F.3d 1369, 1374 (Fed. Cir. 2018) (Lourie, J.,
concurring in the denial of rehearing en banc) (discussing traditional laws of nature such as “Ohm’s Law, Boyle’s Law, [and] the
equivalence of matter and energy”), the Supreme Court has effectively told us in Mayo that correlations between the presence of a
biological material and a disease are laws of nature, see 566 U.S. at
77, and “[p]urely ‘conventional or obvious’ ‘[pre]-solution activity’
is normally not sufficient to transform an unpatentable law of nature into a patent-eligible application of such a law,” id. at 79 (second alteration in original) (quoting Flook, 437 U.S. at 590). We
have since confirmed that applying somewhat specific yet conventional techniques (such as the polymerase chain reaction) to detect
a newly discovered natural law does not confer eligibility under
§ 101. Ariosa, 788 F.3d at 1377; see also Cleveland Clinic, 859
F.3d at 1356, 1362 (addressing other conventional techniques such
as flow cytometry). Our precedent leaves no room for a different
outcome here.

16a
1.
Athena argues that the claims provide an inventive
concept: an innovative sequence of steps involving
manmade molecules. Prior to its discovery, Athena
contends that there was no disclosed method to detect
MuSK autoantibodies. In addition, Athena argues that
the existence of factual disputes precluded dismissal
under Rule 12(b)(6).
Mayo responds that the claims lack an inventive
concept because the specification describes the steps
for detecting MuSK autoantibodies as standard techniques in the art. Furthermore, Mayo argues that no
factual issues precluded the district court’s dismissal
under Rule 12(b)(6).
We agree with Mayo that the steps of the claims
not drawn to ineligible subject matter, whether viewed
individually or as an ordered combination, only require
standard techniques to be applied in a standard way.
As previously discussed, the specification of the ’820
patent plainly states that “[t]he actual steps of detecting autoantibodies in a sample of bodily fluids may be
performed in accordance with immunological assay
techniques known per se in the art,” such as radioimmunoassays. ’820 patent col. 3 ll. 33–37. Iodination and
immunoprecipitation are likewise described as standard techniques. Id. col. 4 ll. 9–12. Because the specification defines the individual immunoprecipitation and
iodination steps and the overall radioimmunoassay as
conventional techniques, the claims fail to provide an
inventive concept. Cleveland Clinic, 859 F.3d at 1362;
Ariosa, 788 F.3d at 1378.
Our decisions in CellzDirect and BASCOM are consistent with the principle that applying standard techniques in a standard way to observe a natural law does

17a
not provide an inventive concept. In CellzDirect, we
considered a combination of claimed steps involving two
freeze/thaw cycles. 827 F.3d at 1051. We held that this
combination of steps was not conventional because the
prior art methods only disclosed using one freeze/thaw
cycle and, in fact, taught away from using multiple
freeze/thaw cycles. Id. Similarly, in BASCOM we held
that the ordered combination of claim limitations was not
routine and conventional because they placed a filtering
tool at a specific location that improved on prior art
technology. 827 F.3d at 1350. The inventive concept was
“found in the non-conventional and non-generic arrangement of known, conventional pieces.” Id. In contrast, claims 7–9 of the ’820 patent employ a conventional
technique for detecting autoantibodies, a radioimmunoassay, which the specification acknowledges was “known
per se in the art.” ’820 patent col. 3 ll. 33–37. The individual constituent steps of that technique, iodination and
immunoprecipitation, are similarly described as standard. Id. col. 4 ll. 9–12. Thus, unlike the claimed limitations at issue in CellzDirect and BASCOM, the recited
steps here were conventional both as an ordered combination and individually.
Athena also argues that the claimed steps were unconventional because they had not been applied to detect MuSK autoantibodies prior to Athena’s discovery
of the correlation between MuSK autoantibodies and
MG. Even accepting that fact, we cannot hold that performing standard techniques in a standard way to observe a newly discovered natural law provides an inventive concept. This is because “[t]he inventive concept necessary at step two ... cannot be furnished by
the unpatentable law of nature ... itself.” Genetic Techs.
Ltd. v. Merial L.L.C., 818 F.3d 1369, 1376 (Fed. Cir.
2016); see Mayo, 566 U.S. at 73 (considering whether

18a
the “claimed processes (apart from the natural laws
themselves)” were routine and conventional). Rather,
to supply an inventive concept the sequence of claimed
steps must do more than adapt a conventional assay to
a newly discovered natural law; it must represent an
inventive application beyond the discovery of the natural law itself. Because claims 7–9 fail to recite such an
application, they do not provide an inventive concept.
Similar to its step one argument, Athena further
argues that the claims recite an inventive concept because they use a man-made molecule, i.e., labeled
MuSK. Athena analogizes its methods involving labeled MuSK to the composition claims involving cDNA
held eligible in Association for Molecular Pathology v.
Myriad Genetics, Inc., 569 U.S. 576, 594–95 (2013).
However, the method claims at issue here are unlike
the claims held eligible in Myriad, which recited a new
composition of matter that was not a natural product.
Id. For the same reasons that we have concluded that
attaching a label to MuSK did not make the claims directed to an eligible concept at step one, we conclude
that appending labeling techniques to a natural law
does not provide an inventive concept where, as here,
the specification describes 125I labeling as a standard
practice in a well-known assay.
2.
Athena also argues that the district court needed to
conduct fact-finding before resolving the § 101 issue.
But, unlike in Aatrix, 882 F.3d at 1128, Athena directs
us to no factual allegations in its complaint—amended
three times—that the radioimmunoassay technique recited in claims 7–9 is anything other than standard and
“known per se in the art.” ’820 patent, col. 3 ll. 33–37.
Instead, Athena relies on an expert declaration submit-

19a
ted with its opposition to Mayo’s motion to dismiss, asserting that iodination and immunoprecipitation were
not routine as applied to the claimed invention. In dismissing Athena’s complaint under Rule 12(b)(6), the
district court did not consider the declaration. Athena
argues that was error. We disagree.
In the First Circuit, under Rule 12(b)(6) a district
court may generally “consider only facts and documents
that are part of or incorporated into the complaint; if
matters outside the pleadings are considered, the motion must be decided under the more stringent standards applicable to a Rule 56 motion for summary judgment.” Trans-Spec Truck Serv., Inc. v. Caterpillar
Inc., 524 F.3d 315, 321 (1st Cir. 2008). Certain documents, like the ’820 patent here, are also considered to
“merge[] into the pleadings” where the “complaint’s
factual allegations are expressly linked to” and dependent upon a document, the authenticity of which is undisputed. Id. (quoting Beddall v. State St. Bank &
Trust Co., 137 F.3d 12, 16–17 (1st Cir. 1998)).
District courts in the First Circuit have discretion
whether to convert a motion to dismiss into a motion
for summary judgment. Id. (citing Fed. R. Civ. P.
12(d)). “[I]f the district court chooses ... to ignore supplementary materials submitted with the motion papers and determine the motion under the Rule 12(b)(6)
standard, no conversion occurs and the supplementary
materials do not become part of the record for purposes
of the Rule 12(b)(6) motion.” Id.
We conclude that the district court did not abuse
its discretion in declining to consider Athena’s expert
declaration and convert the motion into one for summary judgment. The declaration does not “merge into
the pleadings,” as the complaint does not reference it or
otherwise depend on it. Nor is the declaration an offi-

20a
cial public record, another type of document a court
may consider with the pleadings. See Watterson v.
Page, 987 F.2d 1, 3–4 (1st Cir. 1993).
Athena does not expressly argue that the district
court abused its discretion, but does contend, primarily
citing non-binding authority, that the plaintiff may
freely allege facts without support in responding to a
motion to dismiss as long as those facts are consistent
with the complaint, see Early v. Bankers Life & Casualty Co., 959 F.2d 75, 79 (7th Cir. 1992), and that its expert declaration alleged such consistent facts that create a dispute of material fact.
Even assuming this general principle applies in the
First Circuit—an assumption that Athena meagerly
supports— the district court did not need to consider the
allegations in the expert declaration because they were
not consistent with the complaint read in light of the ’820
patent. These technical allegations include: (1) that detecting MuSK autoantibodies required the “creative
step” of breaking up MuSK into smaller fragments, J.A.
623, 625; (2) that identifying a specific site on MuSK to
label would not have been routine because many factors
contribute to whether a binding site for a label is adequate, J.A. 626–28; and (3) that immunoprecipitation is
generally uncertain and not routine, J.A. 630. None of
these details are recited in the claims of the ’820 patent:
no claim requires breaking MuSK into fragments as opposed to using the entire MuSK protein; no claim is limited to a particular MuSK binding site; and no claim recites any detail with respect to immunoprecipitation.
Those omissions are consistent with the specification’s
description of iodination, immunoprecipitation, and the
overall radioimmunoassay as standard techniques. Because Athena’s expert declaration made allegations inconsistent with the ’820 patent, the district court was not

21a
obliged to accept them as true. For these reasons, the
district court did not err in dismissing Athena’s complaint under Rule 12(b)(6).
C.
Claim 6 recites a method for detecting MuSK autoantibodies different from claims 7–9. While claims 7–9
recite a radioimmunoassay, claim 6 recites an ELISA
method. Like radioimmunoassays, the specification describes ELISA as an “immunological assay technique[]
known per se in the art.” ’820 patent col. 3 ll. 32–36.
The main technical difference pertinent to this appeal
between an ELISA and a radioimmunoassay is that in
an ELISA, the secondary antibody rather than the antigen is labeled.
Athena argues that since the district court did not
specifically analyze claim 6, which involves a different
technology, and implicitly treated claims 7–9 as representative, we should remand at least with respect to
claim 6. Mayo responds that the district court properly
grouped claim 6 with claims 7–9 because Athena
grouped them together, and that Athena waived any
separate arguments regarding claim 6 by not specifically addressing that claim in its briefing.
During the district court proceedings, Athena represented that it would not assert claims 1–5 and 10–12,
and Mayo then moved to dismiss Athena’s complaint,
specifically addressing claims 6–9. In its response,
Athena did not make any particularized arguments regarding claim 6, and, in an earlier response, indicated
that the same arguments pertaining to claims 7–9 were
also applicable to claim 6. See J.A. 180 (“While the
claim does not require radioactive MuSK or complexes,
many other arguments relating to claims 7-9 apply to
claim 6.”). The district court did not address claim 6 in

22a
its order beyond listing it among the other claims. Decision, 275 F. Supp. 3d at 309–10.
Given this history, we agree with Mayo that Athena waived its arguments specific to claim 6 by not making them before the district court. We apply regional
circuit law to the issue of waiver, as it is not unique to
patent law. Riverwood Int’l Corp. v. R.A. Jones & Co.,
324 F.3d 1346, 1352 (Fed. Cir. 2003) (citing Midwest Indus., Inc. v. Karavan Trailers, Inc., 175 F.3d 1356, 1359
(Fed. Cir. 1999) (en banc in relevant part)). In the First
Circuit, an argument may be deemed waived that was
not presented to the district court. Butler v. Deutsche
Bank Tr. Co. Ams., 748 F.3d 28, 36 (1st Cir. 2014). Although Athena recognized that claim 6 was at issue, it
concededly did not present any specific arguments concerning the eligibility of claim 6. Appellant’s Br. 15. It
was not incumbent on the district court to address arguments that Athena did not make. We thus find no
error in the district court considering claims 7–9 as
representative of claim 6. Even if we had reached the
issue, we would hold claim 6 ineligible. The specification describes ELISA as an “immunological assay technique[] known per se in the art.” ’820 patent col. 3 ll.
32–36. Claim 6 merely recites the application of this
standard technique to observe a natural law. This does
not provide an inventive concept under step two.
CONCLUSION
We have considered Athena’s remaining arguments
but find them unpersuasive. Because claims 6–9 of the
’820 patent recite only a natural law together with conventional steps to detect that law, they are ineligible
under § 101. For the foregoing reasons, we affirm the
judgment of the district court.
AFFIRMED

23a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA
MAYO MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
NEWMAN, Circuit Judge, dissenting.
Until discovery of the diagnostic method described
in U.S. Patent No. 7,267,820 (“the ’820 patent”), some
20% of patients suffering from the neurological disorder Myasthenia Gravis were not capable of being diagnosed. My colleagues rule that this new diagnostic
method is not patent eligible, although new and unobvious. However, “[t]his new and improved technique, for
producing a tangible and useful result, falls squarely
outside those categories of inventions that are ‘directed
to’ patent-ineligible concepts.” Rapid Litig. Mgmt. Ltd.
v. CellzDirect, Inc., 827 F.3d 1042, 1050 (Fed. Cir.
2016). The court again departs from the cautious restraints in the Supreme Court’s Mayo/Alice application
of laws of nature and abstract ideas.

24a
This court’s decisions on the patent-ineligibility of
diagnostic methods are not consistent, and my colleagues today enlarge the inconsistencies and exacerbate the judge-made disincentives to development of
new diagnostic methods, with no public benefit. I respectfully dissent.
The claims are for a multi-step method of
diagnosis, not a law of nature
The ’820 inventors did not patent their scientific
discovery of MuSK autoantibodies. Rather, they applied this discovery to create a new method of diagnosis, for a previously undiagnosable neurological condition. The district court summarized this new diagnostic
method as follows:
For the 20% of Myasthenia Gravis patients who
do not have the AChR [acetylcholine receptor]
autoantibodies, the ’820 patent inventors discovered that they had IgG [immunoglobulin G]
antibodies that attack the N-terminal domains
of muscle specific tyrosine kinase (“MuSK”), a
receptor that is located on the surface of neuromuscular junctions. ... [A] radioactive label is
attached to MuSK (or a fragment thereof) and
is then introduced to a sample of bodily fluid. ...
[T]he MuSK autoantibodies, if present, attach
to the labeled fragment ... [and] is immunoprecipitated, the presence of the radioactive label
on any antibody indicates that the person is
suffering from Myasthenia Gravis.
Dist. Ct. Order, at 307–081 (citing ’820 patent, col. 1, ll.
55–61). The claims recite the method, including prepa1

Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 275 F. Supp. 3d 306 (D. Mass. 2017) (“Dist. Ct. Order”).

25a
ration of the new radioactive entities and their chemical
reactions to detect autoantibodies to the protein muscle-specific tyrosine kinase (MuSK). At issue are patent claims 7–9, shown with claim 1 (not in suit) from
which they depend:
1. A method for diagnosing neurotransmission
or developmental disorders related to muscle
specific tyrosine kinase (MuSK) in a mammal
comprising the step of detecting in a bodily fluid of said mammal autoantibodies to an epitope
of muscle specific tyrosine kinase (MuSK).
7. A method according to claim 1, comprising
contacting MuSK or an epitope or antigenic determinant thereof having a suitable label
thereon, with said bodily fluid,
immunoprecipitating any antibody/MuSK complex or antibody/MuSK epitope or antigenic determinant complex from said bodily fluid and
monitoring for said label on any of said antibody/MuSK complex or antibody/MuSK
epitope or antigen determinant complex,
wherein the presence of said label is indicative
of said mammal is suffering from said neurotransmission or developmental disorder related
to muscle specific tyrosine kinase (MuSK).
8. A method according to claim 7 wherein said
label is a radioactive label.
9. A method according to claim 8 wherein said
label is 125I [iodine isotope 125].
The reaction between the antibody and the MuSK protein was not previously known, nor was it known to
form a labeled MuSK or its epitope, nor to form the an-

26a
tibody/MuSK complex, immunoprecipitate the complex,
and monitor for radioactivity, thereby diagnosing these
previously undiagnosable neurotransmission disorders.
Claims 7–9 require specific steps by which the diagnostic method is performed. The panel majority ignores these steps, and instead holds that “claims 7–9
are directed to a natural law because the claimed advance was only in the discovery of a natural law, and
that the additional recited steps only apply conventional techniques to detect that natural law.” Maj. Op. at 12.
This analysis of patent-eligibility is incorrect, for the
claim is for a multi-step method of diagnosing neurotransmission disorders related to muscle specific tyrosine kinase, by detecting autoantibodies using a series
of chemical and biological steps as set forth in the
claims. Eligibility is determined for the claim considered as a whole, including all its elements and limitations. Claim limitations cannot be discarded when determining eligibility under Section 101, as explained in
Diamond v. Diehr, 450 U.S. 175 (1981):
In determining the eligibility of respondents’ claimed process for patent protection under § 101, their claims must be considered as a
whole. It is inappropriate to dissect the claims
into old and new elements and then to ignore
the presence of the old elements in the analysis.
Id. at 188; see Parker v. Flook, 437 U.S. 584, 594 (1978)
(“[A] patent claim must be considered as a whole.”); see
also Aro Mfg. Co. v. Convertible Top Replacement Co.,
365 U.S. 336, 344 (1961) (“[I]f anything is settled in the
patent law, it is that the combination patent covers only
the totality of the elements in the claim and that no element, separately viewed, is within the grant.”); Mercoid Corp. v. Minneapolis-Honeywell Regulator Co.,

27a
320 U.S. 680, 684 (1944) (“[A] patent on a combination is
a patent on the assembled or functioning whole, not on
the separate parts.”).
The requirement that a claim is considered as a
whole was not changed by the Mayo/Alice protocol of
searching for an inventive concept within a claim that is
directed to a law of nature or an abstract idea. It is incorrect to excise from the claims any steps that are performed by conventional procedures. This is misconstruction of claims, and misapplication of Section 101.
As reiterated in Bilski v. Kappos, 561 U.S. 593 (2010):
Section 101 is a dynamic provision designed to
encompass new and unforeseen inventions. A
categorical rule denying patent protection for
inventions in areas not contemplated by Congress ... would frustrate the purposes of the patent law.
Id. at 605 (internal citations and quotation marks omitted).
Applied to the ’820 patent, the claimed method is a
new method of diagnosing Myasthenia Gravis. After
eliminating the “conventional” procedures, my colleagues rule that this new method is a “law of nature.”
However, these inventors are not claiming the scientific fact of a newly described autoantibody; they are
claiming a new multi-step diagnostic method. This is
not a law of nature, but a manmade reaction sequence
employing new components in a new combination to
perform a new diagnostic procedure.
Section 101 describes patent-eligible subject
matter in broad and general terms
Section 101 does not exclude new methods of diagnosis of human ailments.

28a
35 U.S.C. § 101 Inventions Patentable
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of
this title.
Section 101 recites the subject matter of patent law, as
distinguished from copyright law, which is also authorized by Article I, Section 8. This framework is “cast in
broad terms,” as the Court observed in Diamond v.
Chakrabarty, 447 U.S. 303 (1980):
The subject-matter provisions of the patent
law have been cast in broad terms to fulfill the
constitutional and statutory goal of promoting
“the Progress of Science and the useful Arts”
with all that means for the social and economic
benefits envisioned by Jefferson. Broad general language is not necessarily ambiguous
when congressional objectives require broad
terms.
Id. at 315.
The Court has often discussed the exceptions to patent eligibility, stating that: “Phenomena of nature,
though just discovered, mental processes, and abstract
intellectual concepts are not patentable, as they are the
basic tools of scientific and technological work.”
Gottschalk v. Benson, 409 U.S. 63, 67 (1972). “Thus, a
new mineral discovered in the earth or a new plant
found in the wild is not patentable subject matter.
Likewise, Einstein could not patent his celebrated law
that E=mc2; nor could Newton have patented the law of
gravity. Such discoveries are ‘manifestations of ... na-

29a
ture, free to all men and reserved exclusively to none’.”
Chakrabarty, 447 U.S. at 309 (quoting Funk Bros. Seed
Co. v. Kalo Inoculant Co., 333 U.S. 127, 130 (1948)). In
Funk Brothers the Court explained:
The qualities of these bacteria, like the heat of
the sun, electricity, or the qualities of metals,
are part of the storehouse of knowledge of all
men. They are manifestations of laws of nature, free to all men and reserved exclusively
to none. He who discovers a hitherto unknown
phenomenon of nature has no claim to a monopoly of it which the law recognizes. If there
is to be invention from such a discovery, it
must come from the application of the law of
nature to a new and useful end.
Id. at 130.
The Court early drew the distinction between scientific knowledge and its technological application. An
oft-cited example is the case of O’Reilly v. Morse, 56
U.S. 62 (15 How.) (1854), where the Court declined patent-eligibility of Morse’s claim 8 to “electromagnetism, however developed for marking or printing
intelligible characters, signs, or letters, at any distances,” id. at 112–13, but sustained Morse’s claims to
“us[ing] [] the motive power of magnetism ... as means
of operating or giving motion to machinery, which may
be used to imprint signals ... for the purpose of telegraphic communication at any distances.” Id. at 85; see
id. at 112. The Court criticized the breadth of Morse’s
claim 8, and stated:
In fine he claims an exclusive right to use a
manner and process which he has not described
and indeed had not invented, and therefore
could not describe when he obtained his patent.

30a
Id. at 113; see Adam Mossoff, O’Reilly v. Morse, George
Mason Law & Econ. Research Paper No. 14-22 (Aug. 18,
2014), available at http://ssrn.com/abstract=2448363. In
Mackay Radio & Telegraph Co. v. Radio Corp. of
America, 306 U.S. 86 (1939), the Court explained that:
“While a scientific truth, or the mathematical expression of it, is not patentable invention, a novel and useful
structure created with the aid of knowledge of scientific
truth may be.” Id. at 94. These principles are the
foundation of the truism that natural phenomena and
abstract ideas are not patent-eligible.
As science and its applications advanced, particularly in the new fields of digital electronics and biotechnology, the jurisprudence kept pace. In Chakrabarty
the Court considered a man-made bacterium, and held
that eligibility under Section 101 applies to “anything
under the sun that is made by man.” 447 U.S. at 309.
The most recent Court updates are Mayo Collaborative Services v. Prometheus Laboratories, Inc., 566
U.S. 66 (2012) (biotechnology), and Alice Corp. Pty.
Ltd. v. CLS Bank Int’l, 573 U.S. 208 (2014) (digital electronics). The Court reviewed Section 101 eligibility in
these new fields, building on the vast body of jurisprudence since the first patent was analyzed by Thomas
Jefferson as Secretary of State in 1790. See generally
Ten Law Professors Br.;2 Five Life Sciences Patent
Practitioners Br.3 These amici curiae explain the policy concern for preemption of scientific principles, and
apply this concern to the case at bar, advising that the
2

Amici Curiae Ten Law Professors, ECF No. 54 (Nov. 13,
2017) (“Ten Law Professors Br.”).
3

Amici Curiae Five Life Sciences Patent Practitioners, ECF
No. 52 (Nov. 13, 2017) (“Five Life Sciences Patent Practitioners
Br.”).

31a
scientific information of the new autoantibody and its
protein reactivity is available to all, and that the ’820
patent claims 7–9 “did not preempt any ‘law of nature’
upon which the claimed diagnostic method relied.”
Five Life Sciences Patent Practitioners Br. at 1.
In Alice, the Court summarized the procedural
framework for eligibility for patenting:
First, we determine whether the claims at issue are directed to one of those patentineligible concepts. 132 S. Ct., at 1296–1297. If
so, we then ask, “[w]hat else is there in the
claims before us?” 132 S. Ct., at 1297. To answer that question, we consider the elements of
each claim both individually and “as an ordered
combination” to determine whether the additional elements “transform the nature of the
claim” into a patent-eligible application. 132 S.
Ct., at 1298, 1297.
Alice, 573 U.S. at 217 (quoting Mayo).
This analysis comports with precedent, and the
Court reiterated its caution that “too broad an interpretation of this exclusionary principle could eviscerate
patent law. For all inventions at some level embody,
use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Mayo, 566 U.S. at 71;
see Alice, 573 U.S. at 217 (“At the same time, we tread
carefully in construing this exclusionary principle lest it
swallow all of patent law.”). We have echoed this concern, stating in Rapid Litigation Management, 827
F.3d at 1050, “[a]t step one, therefore, it is not enough
to merely identify a patent-ineligible concept underlying the claim; we must determine whether that patentineligible concept is what the claim is ‘directed to,’”
(quoting Alice, 573 U.S. at 217).

32a
The panel majority departs from this guidance, for
the claimed diagnostic method as a whole satisfies step
one. The majority does not distinguish between the
question of whether the claimed method as a whole is
eligible, and the question of whether the separate steps
use conventional procedures. Instead, my colleagues
hold that since the separate procedures are conventional, it is irrelevant that the method as a whole is a new
method. The majority misconstrues the claims, in holding that claims 7–9 are directed to the “concept” of “the
correlation between the presence of naturally-occurring
MuSK autoantibodies in bodily fluid and MuSK-related
neurological diseases like MG.” Maj. Op. at 9–10. The
claimed method determines whether this correlation is
present, for diagnostic purposes, but the concept itself
is not claimed.
It is incorrect to separate the claim steps into
whether a step is performed by conventional techniques, and then to remove those steps from the claims
and their “conjunction with all of the other steps” for
the purpose of Section 101 analysis. Diehr, 450 U.S. at
187. All of the claim steps must be considered in the
claimed combination. “It is inappropriate to dissect the
claims into old and new elements and then to ignore the
presence of the old elements in the analysis.” Id. at
188. The Court explained that a new process may be a
combination of known steps:
This is particularly true in a process claim because a new combination of steps in a process
may be patentable even though all the constituents of the combination were well known and
in common use before the combination was
made.
Id. The Court stated that:

33a
The “novelty” of any element or steps in a process, or even of the process itself, is of no relevance in determining whether the subject matter of a claim falls within the § 101 categories of
possibly patentable subject matter.
Id. at 188–89. The Court again recognized this principle
in KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398 (2007),
stating that:
[I]nventions in most, if not all, instances rely
upon building blocks long since uncovered, and
claimed discoveries almost of necessity will be
combinations of what, in some sense, is already
known.
Id. at 418–19. This court applied this principle in
McRO, Inc. v. Bandai Namco Games America Inc., 837
F.3d 1299, 1313 (Fed. Cir. 2016) (internal quotation
marks omitted) and cautioned that “courts must be
careful to avoid oversimplifying the claims by looking
at them generally and failing to account for the specific
requirements of the claims”—a caution disregarded today.
The panel majority contravenes the requirements
of precedent, now holding that all of the steps of claims
7–9—that is, radioactive labelling, complexing, precipitating, and monitoring—are removed from consideration in the Section 101 analysis because they use conventional procedures; the majority holds that “[t]he
’820 patent thus describes the claimed invention principally as a discovery of a natural law, not as an improvement in the underlying immunoassay technology.” Maj. Op. at 12. However, that is not the claimed
invention. In Mayo, 566 U.S. at 71, the Court cautioned
that “too broad an interpretation of this exclusionary
principle could eviscerate patent law. For all inven-

34a
tions at some level embody, use, reflect, rest upon, or
apply laws of nature, natural phenomena, or abstract
ideas.”
Applying the Mayo/Alice protocol of two-step
claim analysis, claims 7–9 of the ’820 patent are patenteligible under Step 1, for this method of diagnosing
Myasthenia Gravis is not a law of nature, but a manmade chemical-biomedical procedure. Claims 7–9 recite
a combination of technologic steps, all of which are limitations to the claims and cannot be disregarded whether for patentability or patent-eligibility or infringement. The court today violates this rule, in holding that
because “the ... individual steps ... [of] ‘[i]odination and
immunoprecipitation are standard techniques in the
art,’” Maj. Op. at 6, these steps do not count under Section 101. Id. at 12–13.
Section 101 does not turn on whether any claim
steps are “standard techniques.” The appropriate
analysis of the role of conventional process steps in
claims to a new method is under Sections 102 and 103,
not Section 101.
The amici curiae raise strong concerns for
the consequences for biomedical diagnostics
This court’s decisions have not been consistent.
Today’s decision is not consistent with, for example,
Rapid Litigation Management, 827 F.3d at 1048, where
the court held that although the general type of cell
was known, and the manipulation of these specific cells
was conducted in a conventional manner, the overall
method was eligible under Section 101.
Amici curiae point out that the public interest is
poorly served by adding disincentive to the development of new diagnostic methods. This is a severe criti-

35a
cism; and when presented by the entire industry, and
stressed by thoughtful scholars, it warrants judicial attention.
The Biotechnology Innovation Organization4 pleads
for consistency in judge-made law, citing the
unabated uncertainty about the patenteligibility of many biotechnological inventions,
with diagnostic and prognostic methods being
particularly affected. The unstable state of patent-eligibility jurisprudence affects modern
biotechnologies ranging from biomarkerassisted methods of drug treatment to companion diagnostic tests, fermentation products, industrial enzyme technology, and markerassisted methods of plant breeding.
BIO Br. at 1. International concerns are presented by
The Chartered Institute of Patent Attorneys,5 an organization of the United Kingdom, stating that this decision conflicts with the eligibility of diagnostic methods under the Patent Cooperation Treaty and the European Patent Convention, and is inconsistent with the
obligations of the United States under Article 27 and
Note 5 of the Agreement on Trade-Related Aspects of
Intellectual Property Rights (TRIPS) administered by
the World Trade Organization. CIPA Br. at 2.
Amici curiae Five Life Sciences Patent Practitioners point out that “The Supreme Court has recognized
that patent ineligibility determinations (by courts or
the Patent Office) have the potential to inhibit innova4

Amicus Curiae Biotechnology Innovation Organization,
ECF No. 53 (Nov. 13, 2017) (“BIO Br.”).
5

Amicus Curiae The Chartered Institute of Patent Attorneys, ECF No. 51 (Nov. 13, 2017) (“CIPA Br.”).

36a
tion,” Five Life Sciences Patent Practitioners Br. at 6
(citing Bilski v. Kappos, 561 U.S. 593, 605 (2010)). They
state concerns of the inventing/investing communities
with respect to the future of diagnostics, because
“[medical] diagnostic methods ... are so tightly bound to
underlying natural laws and phenomen[a], they are especially susceptible to undue expansion of the eligibility
standards implemented to protect the judicial exceptions as they have been explicated by the Supreme
Court.” Id. at 6–7.
Amici curiae Ten Law Professors direct us to the
cost to develop and commercialize a new diagnostic, reported as $50-100 million, see Ten Law Professors Br.
at 18–19 (citing Diaceutics Group, Mystery Solved!
What is the Cost to Develop and Launch a Diagnostic?
(2013), available at https://www.diaceutics.com/?expert
-insight=mysterysolved-what-is-the-cost-to-develop-and
-launch-a-diagnostic).
Undoubtedly there are a variety of interests in diagnostic procedures, and we take note that amicus curiae ARUP Laboratories6 states that diagnostic tests
should not be patentable at all. See generally ARUP
Br. However, for procedures that require extensive
development and federal approval, unpredictability of
patent support is a disincentive to development of new
diagnostic methods.7 The loser is the afflicted public,
6

Amicus Curiae ARUP Laboratories, ECF No. 76 (Feb. 6,
2018) (“ARUP Br.”).
7

This court has invalidated patents on new diagnostic methods in Roche Molecular Sys., Inc. v. CEPHEID, 905 F.3d 1363,
1374 (Fed. Cir. 2018); Cleveland Clinic Found. v. True Health Diagnostics LLC, 859 F.3d 1352, 1363 (Fed. Cir. 2017); Genetic
Techs. Ltd. v. Merial L.L.C., 818 F.3d 1369, 1380 (Fed. Cir. 2016);
Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1371, 1378

37a
for diagnostic methods that are not developed benefit
no one.8
The judicial obligation is to provide stable, consistent application of statute and precedent, to implement the legislative purpose. With all respect to my
colleagues on this panel, they misapply precedent and
misinterpret the statute, adding discrepancies and disincentives to this important area of biomedicine.
Claims 7–9 meet the Section 101 eligibility rules, for the
claims are to a new and useful method.
Applying the statute correctly, diagnostic claims
should be evaluated for novelty and unobviousness,
specificity and enablement. A method that meets these
statutory criteria is within the system of patents,
whether the diagnosed event occurs in the human body
or in an extraneous device. From my colleagues’ contrary conclusion, I respectfully dissent.

(Fed. Cir. 2015); In re BRCA1- & BRCA2-Based Hereditary Cancer Test Patent Litig., 774 F.3d 755, 765 (Fed. Cir. 2014).
8

It is estimated that 66% of all medical treatment decisions
are based on the results of in vitro diagnostic testing. UlrichPeter Rohr, et al., The Value of In Vitro Diagnostic Testing in
Medical Practice: A Status Report, 11 PLoS One 1, 2, 11, 13 (2016),
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC4778800/pdf/pone.0
149856.pdf. See Ten Law Professors Br. at 18.

39a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Civil Action No. 15-cv-40075-IT
ATHENA DIAGNOSTICS, INC., ISIS INNOVATION
LIMITED, AND MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs,
v.
MAYO COLLABORATIVE SERVICES, LLC, D/B/A/
MAYO MEDICAL LABORATORIES, AND MAYO CLINIC,
Defendants.
August 4, 2017
MEMORANDUM & ORDER
TALWANI, D.J.
Plaintiffs Athena Diagnostics, Inc., Isis Innovation
Limited, and Max-Planck-Gesellschaft zur Forderung
der Wissenschaften e.V., allege that two tests developed
by Defendants Mayo Collaborative Services, LLC, and
Mayo Clinic, infringe on Plaintiffs’ patent, U.S. Patent
No. 7,267,820 (the “‘820 Patent”). Third Am. Compl.
(“Complaint”) [#92]. Defendants moved to dismiss Plaintiffs’ complaint arguing that the ‘820 patent is invalid
under 35 U.S.C. § 101 because the claimed method applies routine and conventional techniques to a law of nature. Defs.’ Rule 12(b)(6) Mot. Dismiss (“Defs.’ Mot.
Dismiss”) [#25]. The court was unable to determine on

40a
the papers before it whether the patent used standard
techniques in the art, or whether it was sufficiently inventive to be patentable under § 101, and denied the motion. Mem. & Order 10 [#103]. At a subsequent hearing,
Plaintiffs’ counsel agreed that a statement in the patent
specification (that “[i]odination and immunoprecipitation
are standard techniques in the art”) was undisputed. See
‘820 Patent col. 4 l. 10-11; Tr. Oral Argument, at 17-18,
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
Inc., No. 15-cv-40075 (D. Mass. Oct. 6, 2016). Based on
that statement, the court allowed Defendants the opportunity to renew their motion to dismiss, and allowed additional briefing by the parties. For the following reasons, the Renewed Motion to Dismiss [#131] is ALLOWED.
I.

Facts
A.

The ‘820 Patent

The ‘820 patent allows for the diagnosis of a form of
Myasthenia Gravis, a chronic autoimmune disorder.
‘820 Patent col. 1 l. 13-14. Patients with Myasthenia
Gravis experience waning muscle strength throughout
the day, and symptoms include eye weakness (drooping
eyelids, double vision), leg weakness, dysphagia (difficulty swallowing), and slurred or nasal speech. Id. col.
1 l. 15-23. In 1960, it was discovered that in 80% of patients with Myasthenia Gravis, antibodies attack the
acetyle choline receptor (AChR) (a neurotransmitter).
Id. col. 1 l. 24-26, 34-36. In those patients, diagnosis is
achieved through tests which detect the presence of
AChR autoantibodies. See id. col. 1 l. 34-36. Autoantibodies “are naturally occurring antibodies directed to
an antigen which an individual’s immune response recognizes as foreign even though that antigen actually
originated in the individual.” Id. col. 1 l. 42-45. Howev-

41a
er, 20% of Myasthenia Gravis patients do not have the
AChR autoantibodies despite experiencing the same
symptoms and responding to the same therapies. Id.
col. 1 l. 36-40. For the 20% of Myasthenia Gravis patients who do not have the AChR autoantibodies, the
‘820 patent inventors discovered that they had IgG antibodies that attack the N-terminal domains of muscle
specific tyrosine kinase (“MuSK”), a receptor that is
located on the surface of neuromuscular junctions. Id.
col. 1 l. 55-61.
The patent describes the method for a more accurate and speedy diagnosis of these patients. Id. col. 3 l.
4-7. Specifically, the patent describes a method for diagnosing Myasthenia Gravis in which a radioactive label is attached to MuSK (or a fragment thereof) and is
then introduced to a sample of bodily fluid. Id. col. 3 l.
66-67, col. 4 l. 1-10. The method specifies that 125I be
used as the radioactive label. Id. col. 4 l. 9-10. When
125
I-MuSK is introduced into the sample of bodily fluid,
the MuSK autoantibodies, if present, attach to the labeled fragment. Id. col. 4 l. 2-9. After the bodily fluid is
immunoprecipitated, the presence of the radioactive
label on any antibody indicates that the person is suffering from Myasthenia Gravis. Id. col. 4 l. 8-10.
B.

Infringement Allegations

Athena’s test, “FMUSK,” uses the patented method to diagnose neurotransmission or developmental
disorders related to MuSK. Compl. ¶ 16 [#92]; ‘820 Patent Claim 1. Plaintiffs allege that “Defendants, with
specific knowledge of the ‘820 patent and the method it
covers, surreptitiously and purposefully designed an
alternate test to avoid paying Athena for Athena’s licensed FMUSK test.” Compl. ¶ 20 [#92]. Plaintiffs allege that Defendants availed themselves of the technol-

42a
ogy disclosed in the ‘820 patent, and developed two
tests for diagnosing Myasthenia Gravis patients. Id. ¶
18. Plaintiffs argue that Defendants’ actions directly or
indirectly, and literally or under the doctrine of equivalents, infringe the ‘820 patent. Id. ¶ 24. The claims at
issue are those listed in Claims 6-9 of the ‘820 patent.
Pls.’ Mem. Opp’n Defs.’ Mot. Dismiss. 24 [#37]. Plaintiffs concede that they will not pursue infringement
claims against Defendants based on the other claims in
the patent. Id. at 8.
II. Motion to Dismiss
Defendants moved to dismiss the complaint on the
ground that the patent seeks to patent a law of nature,
and it uses techniques standard in the art. Defs.’ Mem.
Supp. Mot. Dismiss 5-6 [#26]; Defs.’ Renewed Mem.
Supp. Mot. Dismiss 4-5 [#132]. Plaintiffs argue that the
patent is not directed at a law of nature because the patent requires the production and use of 125I-MuSK, a
non-naturally occurring protein. Pls.’ Mem. Opp’n
Defs.’ Mot. Dismiss 17 [#37]. Plaintiffs also argue that
applying various known types of procedures to a nonnaturally occurring protein transforms the claim and
makes it patent eligible. Id. at 13-14.
A. Standard of Review under 35 U.S.C. § 101
In applying § 101 at the pleading stage, the court
construes the patent claims in a manner most favorable
to the non-moving party. See Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat’l Ass’n,
776 F.3d 1343, 1349 (Fed. Cir. 2014). As a threshold requirement for patent protection, the subject matter of a
patent must be patentable under§ 101; otherwise, the
patent is invalid. § 101 states that “[w]hoever invents or
discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful

43a
improvement thereof, may obtain a patent therefor, subject to the conditions and requirements of this title.” 35
U.S.C. § 101. The Supreme Court has held that this section contains an implicit exception: “[l]aws of nature,
natural phenomena, and abstract ideas are not patentable.” Alice Corp. Pty. Ltd. v. CLS Bank Intern., 134 S.
Ct. 2347, 2354 (2014) (quoting Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 133 S. Ct. 2107, 2116
(2013)). Although “all inventions at some level embody,
use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas,” these three patentineligible exceptions prevent “monopolization” of the
“basic tools of scientific and technological work” and the
impeding of innovation. Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66, 71 (2012).
To distinguish between patents that claim laws of
nature, natural phenomena, and abstract ideas from patent-eligible inventions, the court must first determine
whether the claims at issue are directed to one of those
patent-ineligible concepts. Alice, 134 S. Ct. at 2355. If
the concept is patent ineligible, the court then considers
the elements of each claim both “individually and ‘as an
ordered combination’ to determine whether the additional elements ‘transform the nature of the claim’ into
a patent-eligible application.” Id. at 2355 (quoting
Mayo, 566 U.S. at 78-79). “We have described step two
of this analysis as a search for an ‘inventive concept’ –
i.e., an element or combination of elements that is ‘sufficient to ensure that the patent in practice amounts to
significantly more than a patent upon the [ineligible
concept] itself.’” Id. at 2355 (quoting Mayo, 566 U.S. at
72-73). At step two, more is required than wellunderstood, routine, conventional activity already engaged in by the scientific community. Rapid Litig.

44a
Mgmt., Ltd. v. CellzDirect, Inc., 827 F.3d 1042, 1047
(Fed. Cir. 2016).
B. Step One: Are Claims Directed to a Patent Ineligible Concept?
Defendants argue that the ‘820 patent is directed at
a law of nature: that the bodily fluid of some people
with Myasthenia Gravis have autoantibodies to MuSK.
Defs.’ Renewed Mem. Supp. Mot. Dismiss 4-5 [#132].
Plaintiffs argue that the patent method uses a manmade, patent eligible molecule, and uses that chemical
complex in an innovative and transformative manner.
Pls.’ Surreply Opp’n Mot. Dismiss 4 [#46]. Per Plaintiffs, “the claims are not directed to MuSK ... [i]nstead,
the claims recite using a man-made chemically-modified
version of MuSK to form a specific complex that does
not occur in nature,” and are therefore patent eligible.
Id. at 5.
The patent describes a method in which 125I-MuSK
is put into a sample of bodily fluid, and then the bodily
fluid is filtered so that autoantibodies attached to the
125
I-MuSK are detected. ‘820 Patent col. 3 l. 66-67, col. 4
l. 1-9. The presence of the 125I-MuSK autoantibodies
indicates the person suffers from Myasthenia Gravis.
Id. The relevant portion of the patent states:
The invention claimed is:
1.

A method for diagnosing neurotransmission or
developmental disorders related to muscle specific tyrosine kinase (MuSK) in a mammal comprising the step of detecting in a bodily fluid of
said mammal autoantibodies to an epitope of
muscle specific tyrosine kinase (MuSK).

2.

A method according to claim 1 wherein said
method comprises the steps of:

45a
a) contacting said bodily fluid with muscle
specific tyrosine kinase (MuSK) or an antigenic determinant thereof: and
b) detecting any antibody-antigen complexes formed between said receptor tyrosine kinase or an antigenic fragment thereof and antibodies present in said bodily fluid, wherein the presence of said complexes
is indicative of said mammal suffering from
said neurotransmission or development
disorders.
3.

A method according to Claim 2 wherein said
antibody-antigen complex is detected using an
anti-IgG antibody tagged or labeled with a reporter molecule.

...
6.

A method according to claim 3 whereby the intensity of the signal from the anti-human IgG
antibody is indicative of the relative amount of
the anti-MuSK autoantibody in the bodily fluid
when compared to a positive and negative control reading.

7.

A method according to claim 1, comprising contacting MuSK or an epitope or antigenic determinant thereof having a suitable label
thereon, with said bodily fluid, immunoprecipitating any antibody/MuSK complex or antibody/MuSK epitope or antigenic determinant
complex from said bodily fluid and monitoring
for said label on any of said antibody/MuSK
complex or antibody/MuSK epitope or antigen
determinant complex, wherein the presence of
said label is indicative of said mammal is suffering from said neurotransmission or develop-

46a
mental disorder related to muscle specific tyrosine kinase (MuSK).
8.

A method according to claim 7 wherein said label is a radioactive label.

9.

A method according to claim 8 wherein said label is 125I.

‘820 Patent Claims 1-9. Plaintiffs argue that because 125IMuSK is not naturally occurring, the claim is patent eligible under § 101. Pls.’ Mem. Opp’n Defs.’ Mot. Dismiss.
11 [#37] (“Those antibody/MuSK complexes are created
in the laboratory and result from the use of a nonnaturally-occurring laboratory-created molecule, 125I-MuSK, and
therefore, the antibody/MuSK complexes formed and
detected by claim 9 are not found in nature.”).
While 125I-MuSK and the antibody/MuSK complexes are not found in nature, this does not transform the
patent at issue here to a patent eligible concept. Contrary to Plaintiffs’ argument, the ‘820 patent is not a
composition patent directed at the creation of the 125IMuSK auto-antibody complex. Rather, the patent is
directed at a method for the diagnosis of a disease. ‘820
Patent col. 1 l. 9-11 (“The present invention is concerned with neurotransmission disorders and, in particular, with a method of diagnosing such disorders in
mammals.”). Although the patented method uses manmade 125I-MuSK, the use of a man-made complex does
not transform the subject matter of the patent. The
focus of the claims of the invention is the interaction of
the 125I-MuSK and the bodily fluid, an interaction which
is naturally occurring. The purpose of the patent is to
detect whether any antibody-antigen complexes are
formed between the 125I-MuSK receptor and the antibodies “present in said bodily fluid.” Id. Claim 2.
Counter to Plaintiffs’ argument, because the patent fo-

47a
cuses on this natural occurrence, it is directed to a patent-ineligible concept. See Elec. Power Grp., LLC v.
Alstom S.A., 830 F.3d. 1350, 1353 (Fed. Cir. 2016)
(quoting Enfish, LLC v. Microsoft Corp., 822 F.3d 1327,
1335-36 (Fed. Cir. 2016)) (“[W]e have described the
first-stage inquiry as looking at the ‘focus’ of the claims,
their ‘character as a whole.’”).
Athena’s patent is similar to the patent invalidated
by the Supreme Court in Mayo. In Mayo, the Supreme
Court invalidated the patent of a diagnostic test which
measured how well a person metabolized thiopurine
drugs. 566 U.S. at 74. The patent claimed a method in
which the drug 6-thioguanine was given to a person,
after which the level of 6-thioguanine in the person’s
blood stream was measured. Id. The Court held that
the patent method was directed to observing a law of
nature. “‘Prometheus’ patents set forth laws of nature—namely, relationships between concentrations of
certain metabolites in the blood and the likelihood that
a dosage of thiopurine drug will prove ineffective or
cause harm.” Id. at 77. While the Court acknowledged
that it took human action (the administration of a thiopurine drug) to trigger the desired reaction, the reaction itself happened apart from any human action. Id.
at 78. The Court found the claim invalid because the
method sought to measure how well a person metabolizes the drug, which the Court described as “entirely
natural processes.” Id. at 77. Likewise, Plaintiffs’
method seeks to measure autoantibodies that have attached to a receptor protein, an interaction which is a
similarly natural process. In Mayo, a man-made substance was administered to a person, and the byproduct of the metabolization of that man-made substance was observed. Id.; see also Genetic Techs. Ltd.
v. Merial LLC, 818 F.3d 1369, 1376 (Fed. Cir. 2016)

48a
(finding that when the patent claim focuses on a newly
discovered fact about human biology, the claim is directed to unpatentable subject matter). Here, a manmade substance (125I-MuSK) is administered to a sample of bodily fluid, and the by-product (125I-MuSK autoantibodies) is observed.
Further support can be found in Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1372 (Fed. Cir.
2015). That case involved the patent for a method using
fetal DNA for the diagnosis of certain conditions. The
inventors discovered that cell-free fetal DNA
(“cffDNA”) was present in maternal plasma and serum.
By implementing a method for detecting the small fraction of paternal cffDNA in the maternal plasma or serum, the inventors were able to determine certain inherited characteristics. Id. at 1373. The patent method
isolated and amplified cffDNA, allowing for greater efficiency in diagnosis of genetic defects. As the court
noted, “[t]he only subject matter new and useful as of
the date of the application was the discovery of the
presence of cffDNA in maternal plasma or serum ...” Id.
at 1377. Likewise, what is new and useful here is the
discovery that some patients with Myasthenia Gravis
have MuSK autoantibodies in their bodily fluid.
Relying on CellzDirect, 827 F.3d at 1042, Plaintiffs
seek to distinguish the ‘820 patent from Ariosa and
Mayo by arguing that the ‘820 patent is focused on the
steps required by the claimed method, rather than on
the outcome of the diagnostic test. In CellzDirect, patent inventors discovered that hepatocytes, special liver cells that are used for testing, diagnostic, and treatment purposes, could be refrozen. Id. at 1045. Refreezing of hepatocytes was a breakthrough because the
cells naturally have a short life span, and can only be
harvested from a limited number of people. Id. Prior

49a
to the discovery, hepatocytes could only be frozen one
time, which limited their utility. Id. The patented
method importantly allowed for multi-donor hepatocyte
pools, a useful research tool that allows the study of a
drug’s impact on a representative population. Id. The
Federal Circuit found the “end result of the ‘929 patent
claims is not simply an observation or detection of the
ability of hepatocytes to survive multiple freeze thaw
cycles. Rather, the claims are directed to a new and
useful method of preserving hepatocyte cells.” Id. at
1048. The court found that the process’ “desired outcome” was a method to produce something useful, and
therefore was not directed at a patent ineligible concept. Id. at 1048-49. The method allowed for refrozen
hepatocyte cells to be used in a myriad of ways. Conversely, the desired outcome of the Plaintiffs’ method is
the detection of MuSK autoantibodies. It does not produce something useful beyond that diagnosis.
Plaintiffs’ argument that the patent is transformed
by the use of a man-made molecule is unavailing. The
stated purpose of the patent is to diagnose Myasthenia
Gravis, and the method is directed to a patent ineligible
law of nature under § 101.
C. Step Two: Does the Inventiveness of the Claim
make it Patent Eligible?
While the patent is directed to a patent ineligible
concept under § 101, the patent can still be upheld if the
method contains an “inventive concept.” See Alice, 134
S. Ct. at 2355; Genetic Techs. Ltd., 818 F.3d at 1376
(“[T]he application must provide something inventive
beyond mere ‘well-understood, routine, conventional
activity.’”). The Supreme Court has “described step
two of this analysis as a search for an ‘inventive concept’
– i.e., an element or combination of elements that is ‘suf-

50a
ficient to ensure that the patent in practice amounts to
significantly more than a patent upon the [ineligible
concept] itself.’” Alice, 134 S. Ct. at 2355 (quoting
Mayo, 566 U.S. at 72-73). At step two the claims are
examined “in light of the written description,” Amdocs
(Israel) Ltd. V. Openet Telecom, Inc., 841 F.3d 1288,
1299 (Fed. Cir. 2016), and “more is required than wellunderstood, routine, conventional activity already engaged in by the scientific community.” CellzDirect, 827
F.3d at 1047 (internal quotations omitted).
Defendants argue that Plaintiffs’ patent fails step
two of § 101 analysis because it uses well-known techniques for identifying the presence of autoantibodies to
MuSK and therefore does not contain an “inventive
concept.” Defs.’ Mem. Supp. Mot. Dismiss 14 [#26]
(“[P]rocess steps that recite techniques scientists
would have already known to use in conjunction with
the newfound natural law cannot supply the inventive
concept.”). Defendants cite to the patent specification
which states that “[i]ondination and immunoprecipitation are standard techniques in the art, the details of
which can be found in references (4 and 6).” Id. at 10;
‘820 Patent col. 4 l. 9-12. Defendants note that the two
publications referenced in the specification date from
1976 and 1985, and according to Defendants the publications “describe (1) the introduction of a 125I-labeled
antigen (AChR) into a bodily fluid sample, (2) immunoprecipitation, and (3) detecting the radioactive label.”
Defs.’ Mem. Supp. Mot. Dismiss 10 [#26]. Defendants
argue that the publications show that the methods described in the patent are commonly used by researchers in the field, and thus the claims do not pass step two
of the analysis under § 101.
Plaintiffs argue that at the time the invention was
made, the step of “detecting” autoantibodies was nei-

51a
ther well understood nor routine, and that the step of
contacting MuSK or a MuSK epitope with a suitable
label was novel. Pls.’ Memo. Opp’n Defs.’ Renew Mot.
Dismiss 8 [#136]. Plaintiffs admit that the specification
states “[i]odination and immunoprecipitation are standard techniques in the art,” but Plaintiffs argue that
none of those steps are routine when applied to proteins. According to Plaintiffs, proteins are complex,
and getting known iodination methods to work with
proteins is not routine. Id. at 11.
Plaintiffs’ argument is unavailing. Patent applications are required to provide the precise description of
the manner and process of making the invention. 35
U.S.C. § 112(a) (“The specification shall contain a written description of the invention, and of the manner and
process of making and using it, in such full, clear, concise, and exact terms as to enable any person skilled in
the art to which it pertains, or with which it is most
nearly connected, to make and use the same, and shall
set forth the best mode contemplated by the inventor
or joint inventor of carrying out the invention.”); see
also In re TLI Commc’ns LLC Patent Litig., 823 F.3d
607, 613-614 (Fed. Cir. 2016) (“[W]e must be mindful of
extraneous fact finding outside the record, particularly
at the motion to dismiss stage, here we need to only
look to the specification ... .”). None of the complexity
to which Plaintiffs cite is described or claimed in the
patent. While Plaintiffs argue that “Production of
‘MuSK or an epitope or antigenic determinant thereof
having a suitable label thereon’ required several steps
that were neither well-known, not standard, nor conventional for MuSK,” Pls.’ Mem. Opp’n Defs.’ Renewed
Mot. Dismiss 15 [#136], this statement directly contradicts the language in the specification. In the specification, the inventors simply state that the “suitable label”

52a
is 125I or the like, and that iodination of the label is a
standard technique in the art. ‘820 Patent col. 4 l. 9-12.
Furthermore, complexity alone does not make their
method patentable. See Myriad, 133 S. Ct. at 2117
(“Groundbreaking, innovative, or even brilliant discovery does not by itself satisfy the § 101 inquiry.”).
Plaintiff also argues that the use of a man-made
molecule necessarily makes the claims patent eligible.
Plaintiffs’ claim that “[a] process that requires the use
of a novel non-naturally-occurring patent-eligible element is necessarily a patent-eligible process.” Pls.’
Mem. Law. Opp’n Defs.’s Renewed Mot. Dismiss 8
[#136]. However, the patent specification itself states
that the “present invention is concerned with neurotransmission disorders and, in particular with a method
of diagnosing such disorders in mammals.” ‘820 Patent
col.1 l.9-11. The patent claims it is “for diagnosing neurotransimission or developmental disorders related to
muscle specific tyrosine kinase (MuSK) in a mammal
compromising the step of detecting in a bodily fluid of
said mammal autoantibodies to an epitope of muscle
specific tyrosine kinase (MuSK).” Id. Claim 1. On its
face, the patent claims a process for detecting autoantibodies, not a process for creating the 125I-MuSK. See
Myriad, 133 S. Ct. at 2119 (“Had Myriad created an innovative method of manipulating genes while searching
for the BRCA1 and BRCA2 genes, it could have possibly sought a method patent.”).
III. Conclusion
For the foregoing reasons, Defendants’ Renewed
Motion to Dismiss [#131] is GRANTED.
Date: August 4, 2017

/s/ Indira Talwani
United States District Court

53a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE D ISTRICT OF M ASSACHUSETTS
Civil Action No. 15-cv-40075-IT
ATHENA DIAGNOSTICS, INC., ISIS INNOVATION
LIMITED, AND MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs,
v.
MAYO COLLABORATIVE SERVICES, LLC, D/B/A/
MAYO MEDICAL LABORATORIES, AND MAYO CLINIC,
Defendants.
August 4, 2017
ORDER OF DISMISSAL
TALWANI, D.J.
Having allowed Defendants’ motion to dismiss the
claims against them pursuant to 12(b)(6) of the Federal
Rules of Civil Procedure, this matter is dismissed. The
clerk shall close the case.
IT IS SO ORDERED.
/s/ Indira Talwani
United States District Judge

55a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
Filed: July 3, 2019
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
LOURIE, Circuit Judge, with whom REYNA and CHEN,
Circuit Judges, join, concurs in the denial of the petition for rehearing en banc.

56a
HUGHES, Circuit Judge, with whom PROST, Chief
Judge, and TARANTO, Circuit Judge, join, concurs in
the denial of the petition for rehearing en banc.
DYK, Circuit Judge, with whom HUGHES, Circuit
Judge, joins, and with whom CHEN, Circuit Judge,
joins as to Parts IV, V, and VI, concurs in the denial of
the petition for rehearing en banc.
CHEN, Circuit Judge, concurs in the denial of the petition for rehearing en banc.
MOORe, Circuit Judge, with whom O’MALLEY, WALLACH, and STOLL, Circuit Judges, join, dissents from
the denial of the petition for rehearing en banc.
NEWMAN, Circuit Judge, with whom WALLACH, Circuit Judge, joins, dissents from the denial of the petition for rehearing en banc.
STOLL, Circuit Judge, with whom WALLACH, Circuit
Judge, joins, dissents from the denial of the petition for
rehearing en banc.
O’MALLEY, Circuit Judge, dissents from the denial of
the petition for rehearing en banc.
PER CURIAM.
ORDER
A petition for rehearing en banc was filed by appellants Athena Diagnostics, Inc., Oxford University Innovation Ltd., and the Max-Planck-Gesellschaft zur
Forderung der Wissenschaften E.V. A response to the
petition was invited by the court and filed by appellees
Mayo Collaborative Services, LLC and Mayo Clinic.
Several motions for leave to file amici curiae briefs
were filed and granted by the court. The petition for
rehearing, response, and amici curiae briefs were first

57a
referred to the panel that heard the appeal, and thereafter, to the circuit judges who are in regular active
service. A poll was requested, taken, and failed.
Upon consideration thereof,
IT IS ORDERED THAT:
1) The petition for panel rehearing is denied.
2) The petition for rehearing en banc is denied.
3) The mandate of the court will issue on July
10, 2019.
FOR THE COURT
July 3, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

58a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
LOURIE, Circuit Judge, with whom REYNA and CHEN,
Circuit Judges, join, concurring in the denial of the petition for rehearing en banc.
I concur in the court’s decision not to rehear this
case en banc. In my view, we can accomplish little in
doing so, as we are bound by the Supreme Court’s decision in Mayo. Some of us have already expressed our
concerns over current precedent. E.g., Athena Diagnostics, Inc. v. Mayo Collaborative Servs., LLC, 915
F.3d 743, 753 n.4 (Fed. Cir. 2019); Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 809 F.3d 1282, 1284 (Fed. Cir.
2015) (Lourie, J., concurring in the denial of rehearing
en banc); id. at 1287 (Dyk, J., concurring in the denial of
rehearing en banc).

59a
If I could write on a clean slate, I would write as an
exception to patent eligibility, as respects natural laws,
only claims directed to the natural law itself, e.g.,
E=mc2, F=ma, Boyle’s Law, Maxwell’s Equations, etc.
I would not exclude uses or detection of natural laws.
The laws of anticipation, obviousness, indefiniteness,
and written description provide other filters to determine what is patentable.
But we do not write here on a clean slate; we are
bound by Supreme Court precedent. In Mayo Collaborative Services v. Prometheus Laboratories, Inc., the
claims at issue were held by the Court to be directed to
the relationship between the concentration of metabolites in the blood and the likelihood that a drug dose
will be ineffective, which it referred to as a law of nature. 566 U.S. 66, 74–75, 77 (2012). The other steps—
administering a drug and detecting the level of a specific metabolite—added only “[p]urely ‘conventional or
obvious’ ‘[pre]-solution activity’” that was “not sufficient to transform an unpatentable law of nature into a
patent-eligible application of such a law.” Id. at 79
(second alteration in original) (quoting Parker v. Flook,
437 U.S. 584, 590 (1978)); see Bilski v. Kappos, 561 U.S.
593, 610–11 (2010) (“[T]he prohibition against patenting
abstract ideas ‘cannot be circumvented by attempting
to limit the use of the formula to a particular technological environment’ or adding ‘insignificant postsolution
activity.’” (quoting Diamond v. Diehr, 450 U.S. 175,
191–92 (1981))); Flook, 437 U.S. at 590 (“The notion that
post-solution activity, no matter how conventional or
obvious in itself, can transform an unpatentable principle into a patentable process exalts form over substance.”). Because the claims recited only what the
Court called a natural law together with wellunderstood, conventional activity, the Court concluded

60a
the claims were ineligible under § 101. Mayo, 566 U.S.
at 73, 79–80.
In applying Mayo, we have accordingly held claims
focused on detecting new and useful natural laws with
conventional steps to be ineligible. E.g., Cleveland
Clinic Found. v. True Health Diagnostics LLC, 859
F.3d 1352, 1363 (Fed. Cir. 2017), cert. denied, 138 S. Ct.
2621 (2018); Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371, 1378 (Fed. Cir. 2015), cert. denied, 136 S.
Ct. 2511 (2016). In Cleveland Clinic, the claims recited
a specific assay to detect the protein MPO, the enzymelinked immunosorbent assay. 859 F.3d at 1357–58,
1362. Ariosa similarly involved a specific technique to
amplify and detect DNA, the polymerase chain reaction. 788 F.3d at 1377. But in both cases, the patents’
specifications described these techniques as wellunderstood and conventional. Cleveland Clinic, 859
F.3d at 1355; Ariosa, 788 F.3d at 1377. We concluded
that using these routine assays to detect new natural
phenomena did not transform the claims into patent eligible applications. Cleveland Clinic, 859 F.3d at 1362–
63; Ariosa, 788 F.3d at 1376–77.
In contrast, new method of treatment patents do
not fall prey to Mayo’s prohibition. E.g., Vanda
Pharm. Inc. v. West-Ward Pharm. Int’l Ltd., 887 F.3d
1117, 1136 (Fed. Cir. 2018). Nor have unconventional
arrangements of known laboratory techniques, even if
directed to a natural law. Rapid Litig. Mgmt. Ltd. v.
CellzDirect, Inc., 827 F.3d 1042, 1051 (Fed. Cir. 2016).
But this case involves neither scenario. Athena’s
claims recite observing a natural law using a radioimmunoassay that the specification describes as “standard” and “known per se in the art.” U.S. Patent
7,267,820 col. 3 ll. 33–37, col. 4 ll. 10–12. The claims do
not recite a new method of treatment or an unconven-

61a
tional combination of steps to detect the natural law.
The only unconventional aspect is the inventors’ discovery of what the Supreme Court would call the natural law—the correlation between MuSK autoantibodies
and the neurological disorder myasthenia gravis—but
we cannot premise eligibility solely on the natural law’s
novelty. Mayo, 566 U.S. at 73 (concluding that “the
steps in the claimed processes (apart from the natural
laws themselves) involve well-understood, routine, conventional activity previously engaged in by researchers
in the field” (emphasis added)); Flook, 437 U.S. at 591–
92 (“[T]he novelty of the mathematical algorithm is not
a determining factor at all” and “is treated as though it
were a familiar part of the prior art.”). Under Supreme
Court precedent, I do not believe that specific yet purely conventional detection steps impart eligibility to a
claim that otherwise only sets forth what the Court has
held is a natural law. That is the situation presented in
Ariosa, Cleveland Clinic, and now Athena. Accordingly, as long as the Court’s precedent stands, the only
possible solution lies in the pens of claim drafters or
legislators. We are neither.
Amici and others have complained that our eligibility precedent is confused. However, our cases are consistent. They have distinguished between new method
of treatment claims and unconventional laboratory
techniques, on the one hand, and, on the other hand, diagnostic methods that consist of routine steps to observe the operation of a natural law, a clear line. Beyond that, I do not see a way clear to distinguish Mayo
in a useful, principled, fashion. Software is another
matter, but such patents are not before us here.
I therefore concur in the decision of the court not to
take this case en banc because I do not believe we can
convincingly distinguish Mayo in this case.

62a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
HUGHES, Circuit Judge, with whom PROST, Chief
Judge, and TARANTO, Circuit Judge, join, concurring in
the denial of the petition for rehearing en banc.
The multiple concurring and dissenting opinions
regarding the denial of en banc rehearing in this case
are illustrative of how fraught the issue of § 101 eligibility, especially as applied to medical diagnostics patents,
is. I agree that the language in Mayo, as later reinforced in Alice, forecloses this court from adopting an
approach or reaching a result different from the panel
majority’s. I also agree, however, that the bottom line
for diagnostics patents is problematic. But this is not a
problem that we can solve. As an inferior appellate
court, we are bound by the Supreme Court.

63a
I, for one, would welcome further explication of eligibility standards in the area of diagnostics patents.
Such standards could permit patenting of essential life
saving inventions based on natural laws while providing a reasonable and measured way to differentiate between overly broad patents claiming natural laws and
truly worthy specific applications. Such an explication
might come from the Supreme Court. Or it might come
from Congress, with its distinctive role in making the
factual and policy determinations relevant to setting
the proper balance of innovation incentives under patent law.

64a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
Dyk, Circuit Judge, with whom Hughes, Circuit Judge,
joins, and with whom Chen, Circuit Judge, joins as to
Parts IV, V, and VI, concurring in the denial of the petition for rehearing en banc.
I
In the realm of abstract ideas, the Mayo/Alice
framework has successfully screened out claims that
few would contend should be patent eligible, for example, those that merely apply well-known business
methods and other processes using computers or the
Internet.1 The Mayo/Alice framework has thus proven
1

See, e.g., Trading Techs. Int’l, Inc. v. IBG LLC, 921 F.3d
1378, 1384–85 (Fed. Cir. 2019) (invalidating claims directed to

65a
to be both valuable and effective at invalidating overly
broad, non-inventive claims that would effectively
“grant a monopoly over an abstract idea.” Alice Corp.
v. CLS Bank Int’l, 573 U.S. 208, 216 (2014) (quoting
Bilski v. Kappos, 561 U.S. 593, 611–612 (2010)). As the
Supreme Court has recognized, the concern with such
patents is that they would “‘inhibit further discovery
by improperly tying up the future use of’ these buildings blocks of human ingenuity.” Id. (quoting Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 85 (2012)). At the same time, our § 101 precedent has allowed room for claims that do more than recite conventional applications of abstract concepts.2
“providing a trader with additional financial information to facilitate market trades” using “a generic computer”); SAP Am., Inc.,
v. Investpic, LLC, 898 F.3d 1161, 1167–69 (Fed. Cir. 2018) (invalidating claims directed to “the selection and mathematical analysis
of [investment] information, followed by reporting or display of
the results” using “off-the-shelf computer technology”); Credit
Acceptance Corp. v. Westlake Servs., 859 F.3d 1044, 1054–57 (Fed.
Cir. 2017) (invalidating claims directed to “processing an application for financing a purchase” using “generic computer components”); Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350,
1353–55 (Fed. Cir. 2016) (invalidating claims directed to “collecting
information, analyzing it, and displaying certain results” using
“off-the-shelf, conventional computer, network, and display technology”); Intellectual Ventures I LLC v. Capital One Bank, 792
F.3d 1363, 1369–70 (Fed. Cir. 2015) (invalidating claims directed to
tailoring advertising to individual customers using a “generic web
server with attendant software”); Ultramercial, Inc. v. Hulu,
LLC, 772 F.3d 709, 715–16 (Fed. Cir. 2014) (invalidating a claim
directed to “using advertising as an exchange or currency” “on the
Internet”); buySAFE, Inc. v. Google, Inc., 765 F.3d 1350, 1355
(Fed. Cir. 2014) (invalidating a claim directed to “creating a contractual relationship” through “online transactions” using “generic” computer functionality).
2

See, e.g., Ancora Techs., Inc. v. HTC Am., Inc., 908 F.3d
1343, 1348–49 (Fed. Cir. 2018) (holding that claim to a specific

66a
II
Despite assertions to the contrary, the doctrines of
novelty under § 102, obviousness under § 103, and enablement and written description under § 112 cannot adequately guard against the dangers of overclaiming. In
Mayo, the Supreme Court rejected the argument that
“other statutory provisions”—specifically §§ 102, 103,
and 112—could adequately “perform th[e] screening
function” served by § 101. 566 U.S. at 89. Although the
Court recognized that the § 101 patent eligibility inquiry “might sometimes overlap” with considerations of
novelty and non-obviousness under §§ 102 and 103, it
concluded that “to shift the patent-eligibility inquiry
entirely to these later sections risks creating significantly greater legal uncertainty, while assuming that
those sections can do work that they are not equipped
to do.” Id. at 90. Those sections and § 112 do not adequately address “the risk that a patent on the [natural]
law would significantly impede future innovation.” Id.
at 90–91; see also Mark Lemley et al., Life After Bilski,
63 Stan. L. Rev. 1315, 1329–32 (2011) (outlining differences between §§ 101 and 112). Nor do these other
provisions typically allow early stage resolution of the
“threshold” issue of patent eligibility, Bilski, 561 U.S.
at 602, necessary to avoid the costs of lengthy litigation.
Thus, § 101 serves an important purpose not served by
these other provisions in the Patent Act.
technique for improving computer security against unauthorized
use of a program was not directed to an abstract idea); Finjan,
Inc. v. Blue Coat Sys., Inc., 879 F.3d 1299, 1303–04 (Fed. Cir.
2018) (holding that claims to a “behavior-based virus scan” allowing for more flexible and nuanced virus filtering were not directed
to an abstract idea); Enfish, LLC v. Microsoft Corp., 822 F.3d
1327, 1336–38 (Fed. Cir. 2016) (holding that claims to selfreferential tables that allowed for more efficient launching and
adaptation of databases were not directed to an abstract idea).

67a
A simple example in the area of diagnostic patents
illustrates this point. If the first person to identify the
relationship between a genetic abnormality and a disease had sought a broad patent on a method of searching for genetic abnormalities and determining their relationship to disease, the claims would have been neither anticipated nor obvious. Nor is it likely that they
would they have been invalid for lack of enablement
(since a representative species was disclosed) or written description (the overall conception being in the
mind of the inventor). The only barrier to such broad
patent claiming is § 101.
In fact, one of the diagnostic patents that we have
held unpatentable under § 101 had exactly that problem
of over-breadth. In In re BRCA1- & BRCA2-Based
Hereditary Cancer Test Patent Litigation, 774 F.3d 755
(Fed. Cir. 2014), we held that genetic testing claims
were directed to the “patent-ineligible abstract idea of
comparing BRCA sequences and determining the existence of alterations” of the gene. Id. at 763. We noted
the breadth of the claims, explaining that they “are not
restricted by the purpose of the comparison or the alteration being detected,” nor “limited to the detection
of risk of breast or ovarian cancer.” Id. at 763–64. Indeed, the claims encompassed “comparisons for purposes other than detection of cancer.” Id.; see also Ariosa
Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d 1371,
1373–74, 1378 (Fed. Cir. 2015) (invalidating claims to
methods of detecting cffDNA in maternal serum or
plasma that encompassed any diagnosis of any disease).
What was claimed was a broad concept, and we therefore held the claims ineligible under § 101, though the
claims may well have survived challenge under §§ 102,
103, and 112.

68a
III
The problem with § 101 arises not in implementing
the abstract idea approach of Alice, but rather in implementing the natural law approach of Mayo. Although Mayo’s framework is sound overall, I share the
concerns expressed by my dissenting colleagues that
the Mayo test for patent eligibility should leave room
for sufficiently specific diagnostic patents. But it is the
Supreme Court, not this court, that must reconsider
the breadth of Mayo.
Although the Supreme Court’s decision in Mayo
did not make all diagnostic claims patent ineligible, as
we previously held in Ariosa, 788 F.3d at 1376–77,
Mayo left no room for us to find typical diagnostic
claims patent eligible, absent some inventive concept at
Mayo step two. The panel here correctly concluded
that Mayo controls.
The inventors of U.S. Patent 7,267,820 (“the ’820
patent”) discovered that myasthenia gravis (“MG”), a
neurological disorder, can be diagnosed by detecting
the presence of MuSK autoantibodies in bodily fluid.
See Athena Diagnostics, Inc. v. Mayo Collaborative
Servs., LLC, 915 F.3d 743, 747 (Fed. Cir. 2019). At
Mayo step one, the claims are directed to a natural law:
“the correlation between the presence of naturallyoccurring MuSK autoantibodies in bodily fluid” and certain neurological diseases like MG. Id. at 750. This is
similar to the correlation between “concentrations of
certain metabolites in the blood and the likelihood that
a dosage of a thiopurine drug will prove ineffective or
cause harm,” which the Supreme Court held “sets forth
a natural law” in Mayo, 566 U.S. at 77.
So too as in Mayo, at step two, the additional steps
of the claims here, though “set forth with some specific-

69a
ity,” Athena, 915 F.3d at 752, “only require standard
techniques to be applied in a standard way” and thus do
not supply the requisite inventive concept, id. at 753.
The specification explains that “[t]he actual steps of detecting autoantibodies in a sample of bodily fluids may
be performed in accordance with immunological assay
techniques known per se in the art.” Id. at 753–54 (alteration in original). Similarly, in Mayo, adding steps
“to determine the level of the relevant metabolites in
the blood” was held “not sufficient to transform an unpatentable law of nature into a patent-eligible application” because those steps were “well known in the art.”
566 U.S. at 79. Therefore, the panel here correctly held
that under the Mayo framework, the claims are not patent eligible under § 101. Athena, 915 F.3d at 746, 756.
And the Supreme Court has instructed us to follow its
precedent until the Court itself chooses to expressly
overrule it.3
IV
It is nonetheless appropriate to point out that there
is tension between Mayo and the Supreme Court’s later decision in Association for Molecular Pathology v.
Myriad Genetics, Inc., 569 U.S. 576 (2013), and that the
3

See, e.g., Hohn v. United States, 524 U.S. 236, 252–53 (1998)
(“Our decisions remain binding precedent until we see fit to reconsider them, regardless of whether subsequent cases have raised
doubts about their continuing vitality.”); State Oil Co. v. Khan, 522
U.S. 3, 20 (1997) (“The Court of Appeals was correct in applying
that principle despite disagreement with [the precedent], for it is
this Court’s prerogative alone to overrule one of its precedents.”);
Rodriguez de Quijas v. Shearson/Am. Express, Inc., 490 U.S. 477,
484 (1989) (“If a precedent of this Court has direct application in a
case, yet appears to rest on reasons rejected in some other line of
decisions, the Court of Appeals should follow the case which directly controls, leaving to this Court the prerogative of overruling
its own decisions.”).

70a
holding of Mayo may be overbroad. The language of
§ 101 does cover “discover[ies],” 35 U.S.C. § 101, and
there is no doubt that determining the relationship between specific genetic abnormalities and specific diseases constitutes an important discovery with proven
utility. There is much to be said for the patentability of
claims to such discoveries, if not drafted overbroadly.
And Myriad suggests that such discoveries may be patent eligible. There, the patent applicant discovered a
previously unknown natural phenomenon: the location
and sequence of the BRCA1 and BRCA2 genes and
their connection to cancer. Myriad, 569 U.S. at 582–83.
Although the Court held ineligible the claims to naturally occurring DNA sequences, it suggested that “new
applications of knowledge about the BRCA1 and
BRCA2 genes” could be eligible and referred to various
“unchallenged claims” discussed in Judge Bryson’s concurrence to our court’s decision below. Id. at 596 (emphasis in original) (citing Ass’n for Molecular Pathology v. U.S. Patent & Trademark Office, Inc., 689 F.3d
1303, 1349 (Fed. Cir. 2012) (Bryson, J. concurring)).
One of these “unchallenged claims” was claim 21 of
Myriad’s U.S. Patent No. 5,753,441, which covered a
method of detecting (using conventional methods) any
of several specific mutations in the BRCA1 gene, newly
discovered by the patent applicant and shown to increase a person’s risk of developing particular cancers
(a far narrower claim than the claims held unpatentable
in BRCA1- & BRCA2).
By suggesting that such a claim could be patent eligible, Myriad thus recognized that an inventive concept can sometimes come from the discovery of an unknown natural phenomenon and its application for a diagnostic purpose. This appears to be in tension with
Mayo. Under Mayo, a natural phenomenon itself, no

71a
matter how narrow and specific, cannot supply the requisite “inventive concept.” See Mayo, 566 U.S. at 77–
78, 88–89.
Thus, it would be desirable for the Supreme Court
to refine the Mayo framework to allow for sufficiently
specific diagnostic patent claims with proven utility. In
the life sciences, development of new diagnostic methods is often based on researching complex biological
systems. The inventive concepts in this area may lie
primarily in the application of a natural law.
V
At the same time, Mayo’s central concern was both
important and consistent with the Patent Act. There is
a substantial risk that overbroad claims involving natural laws may “preempt the use of a natural law” and
thus “inhibit further discovery by improperly tying up
the future use of laws of nature.” Id. at 72, 85. In other
words, there is a risk that granting overbroad patents
could reward a mere concept rather than the work subsequently done by the actual inventor. The risks associated with such overbreadth are shown by the examples discussed earlier.
In my view, the Mayo framework should be refined
in limited respects. First, at step one of Mayo, the natural law cannot be claimed as such. See Gottschalk v.
Benson, 409 U.S. 63, 67 (1972). As Mayo noted, “Einstein could not patent his celebrated law that E=mc2.”
566 U.S. at 71 (quoting Diamond v. Chakrabarty, 447
U.S. 303, 309 (1980)); see also Parker v. Flook, 437 U.S.
584, 591 (1978). Nor could a patent claimant “simply
recite a law of nature and then add the instruction ‘apply the law,’” such as if Einstein had claimed “a process
consisting of simply telling linear accelerator operators
to refer to the law.” Mayo, 566 U.S. at 78. Where the

72a
natural law itself is so broadly claimed, there is no reason to address step 2 (the inventive concept). The
claims are simply ineligible.
At the same time, “all inventions at some level embody, use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas.” Id. at 71. Thus,
a sufficiently specific “application of a law of nature or
mathematical formula to a known structure or process
may well be deserving of patent protection.” Id. (emphasis in original) (quoting Diamond v. Diehr, 450 U.S.
175, 187 (1981)).
For there to be a patent eligible application of a natural law, there must be a “discover[y],” 35 U.S.C. § 101,
and the claims must recite a specific application of that
“discovery” with established utility. Otherwise, the natural law may be entirely preempted, even as to those aspects where the patent claimant has done no more than
claim a broad conception. Requiring a specific application mitigates against the risk of granting patents too
early—that is, before the patent applicant has devised a
specific application of the natural law—and thereby prevents monopolization of the “basic tools of scientific and
technological work.” Mayo, 566 U.S. at 71 (quoting Benson, 409 U.S. at 67); Brenner v. Manson, 383 U.S. 519,
534–35 (1966) (noting that before a claimed invention is
sufficiently “refined and developed,” granting a patent
“may confer power to block off whole areas of scientific
development”); see generally Lemley, supra, at 1337–38
(arguing for a focus on claim scope under § 101 and noting that overly broad claims “make later improvements
more costly or even impossible”).
The Supreme Court’s opinion in O’Reilly v. Morse,
56 U.S. (15 How.) 62 (1854), the foundation of the
Court’s jurisprudence on patent eligibility, appears to

73a
make this very distinction. There, the Court allowed
Morse’s narrower claims, which were tied specifically
to his discovery: the telegraph. See id. at 112.4 The
Court reasoned that Morse “discover[ed] a method by
which intelligible marks or signs may be printed at a
distance” and that “for the [particular] method or process thus discovered, he is entitled to a patent.” Id. at
117. But the Court held unpatentable Morse’s claim to
all “marking or printing [of] intelligible characters,
signs, or letters, at any distances” via electric currents,
because “the claim is too broad, and not warranted by
law.” Id. at 112–13. As in Mayo, the Court was particularly concerned about preempting use of the natural
phenomenon: “For aught that we now know some future inventor, in the onward march of science, may discover a [different] mode of writing or printing at a distance by means of the electric or galvanic current … .
But yet if it is covered by this patent the inventor could
not use it, nor the public have the benefit of it without
the permission of this patentee.” Id. at 113.
More recent opinions of the Supreme Court are also
consistent with a focus on claims that sweep too broadly. In Benson, the Court observed that the claims were
“so abstract and sweeping as to cover both known and
unknown uses of” the mathematical formula at issue,
and so held the claims ineligible. 409 U.S. at 67–68.
Similarly, in Flook, the claims to “a formula for computing an updated alarm limit” could “cover a broad range
4

For example, Morse’s second claim recited “the employment
of the machinery called the register or recording instrument, composed of the train of clock-wheels, cylinders, and other apparatus,
or their equivalent, for removing the material upon which the
characters are to be imprinted, and for imprinting said characters,
substantially as set forth in the foregoing description of the second
principal part of my invention.” Morse, 56 U.S. at 85.

74a
of potential uses” and were also held ineligible. 437
U.S. at 586. By contrast, in Diehr, the Court held eligible claims that used a well-known mathematical equation in a process of curing synthetic rubber. 450 U.S. at
191–92. The patent claimants did “not seek to preempt
the use of th[e] equation,” but rather sought “only to
foreclose from others the use of that equation in conjunction with all of the other steps in their claimed process” for curing rubber. Id. at 187. Thus, the Supreme
Court’s precedents support a requirement of specific
application as part of the patent eligibility inquiry as to
natural laws.
To ensure against overbroad claims, the scope of
the § 101 natural law exception is necessarily informed
by the utility requirement of § 101. The utility requirement has its origins in the constitutional grant of
Congressional authority, which contemplated that the
“discoveries” entitled to patents would be limited to
those of proven utility. See U.S. Const. art. I, § 8, cl. 8;
Sean M. O’Connor, The Overlooked French Influence
on the Intellectual Property Clause, 82 U. Chi. L. Rev.
733, 792–93 (2015). And the statutory requirement of
utility has been held by the Supreme Court to require
that the claimed invention have established utility, not
merely the prospect of future utility. Brenner, 383 U.S.
at 534–36. In Brenner, the Supreme Court held that a
patent claiming an allegedly novel process for making
certain known steroids was ineligible for lack of utility.
Id. The Court reasoned that without a showing of utility, “the metes and bounds of th[e] monopoly are not capable of precise delineation,” and “[s]uch a patent may
confer power to block off whole areas of scientific development, without compensating benefit to the public.” Id. at 534. “Unless and until a process is refined
and developed to this point—where specific benefit ex-

75a
ists in currently available form—there is insufficient
justification for permitting an applicant to engross
what may prove to be a broad field.” Id. at 534–35. It
follows that the scope of patents involving the application of natural laws should not extend beyond established utility, and that claims that extend further are
not patent eligible. Under this approach, because of
their breadth, the claims in Mayo would not be eligible
at step one. See Mayo, 566 U.S. at 87 (explaining that
the claim steps were “set forth in highly general language covering all processes that make use of the correlations after measuring metabolites, including later
discovered processes that measure metabolite levels in
new ways”).
However, if the claim is sufficiently tied to a specific and useful application of a natural law at Mayo step
one, that application itself should serve as the necessary inventive concept at Mayo step two. Yet at step
two, the application must be more than determining the
precise correlation of a known relationship using prior
art processes, as was the case in Mayo itself. In Mayo,
“scientists already understood that the levels in a patient’s blood of certain metabolites, including [those involved in the claims] were correlated with the likelihood that a particular dosage of a thiopurine drug could
cause harm or prove ineffective.” Id. at 73–74. And
“scientists routinely measured metabolites as part of
their investigations into the relationships between metabolite levels and efficacy and toxicity of thiopurine
compounds.” Id. at 79. “But those in the field did not
know the precise correlations between metabolite levels and likely harm or ineffectiveness.” Id. at 74. Thus,
Mayo’s claims only involved determining the precise
correlations of a law of nature that was already well
known. The asserted application of the natural law was

76a
therefore no more than determining “the precise correlations between metabolite levels and likely harm or
ineffectiveness” of a drug dosage and thus was patent
ineligible.
Requiring specific and useful application for the entire scope of the claim at Mayo step one, and more than
determining precise correlations of a known natural
law using prior art processes at Mayo step two, would
ensure that the claims truly recite an “inventive application” of the natural law that should be eligible under
§ 101. This approach would help ensure that the reward of a patent goes to those who have actually done
the work to develop a specific application of a natural
law, not those who are the first to the patent office with
broad, conceptual claims lacking proven utility in many
applications.
VI
Finally, this case may involve claims that could be
patent eligible under this suggested approach. First,
claims 7–9 do not claim the natural law itself—the relationship between MuSK autoantibodies and MG, a rare
neurological disorder—but rather claim specific methods of diagnosing neurological disorders like MG by detecting MuSK autoantibodies. See Athena, 915 F.3d at
747.5 Second, unlike in Mayo, this case involves a “dis5

Claims 7–9 depend from claim 1, not at issue in this appeal,
which recites:
1. A method for diagnosing neurotransmission or developmental disorders related to [MuSK] in a mammal
comprising the step of detecting in a bodily fluid of said
mammal autoantibodies to an epitope of [MuSK].
’820 patent, col. 12, ll. 31–35.
Claim 7 recites:

77a
covery” of the relationship, not mere determination of
the precise correlations of a known natural law using
prior art processes. As the panel noted, “[p]rior to
the[] discovery [by the named inventors], no disease
had been associated with MuSK.” Id.
Because at least some of the claims here recite specific applications of the newly discovered law of nature
with proven utility, this case could provide the Supreme Court with the opportunity to refine the Mayo
framework as to diagnostic patents.

7. A method according to claim 1, comprising
contacting MuSK or an epitope or antigenic determinant
thereof having a suitable label thereon, with said bodily
fluid, immunoprecipitating any antibody/MuSK complex
or antibody/MuSK epitope or antigenic determinant
complex from said bodily fluid and
monitoring for said label on any of said anti-body/MuSK
complex or antibody/MuSK epitope or antigen determinant complex,
wherein the presence of said label is indicative of said
mammal is suffering from said neurotransmission or developmental disorder related to [MuSK].
Id. col. 12, l. 62–col 13, l. 5 (indentation added).
Claim 8 depends from claim 7 and recites that the label is a
radioactive label. Id. col. 13, ll. 6–7. Claim 9 depends from claim 8
and further recites that the radioactive label is 125I. Id. col 13, ll.
8–9.

78a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
CHEN, Circuit Judge, concurring with denial of the petition for rehearing en banc.
“Congress plainly contemplated that the patent laws
would be given wide scope.” Bilski v. Kappos, 561 U.S.
593, 601 (2010) (quoting Diamond v. Chakrabarty, 447
U.S. 303, 308 (1980)). As the Court observed, “Congress
took this permissive approach to patent eligibility to ensure that ‘ingenuity should receive a liberal encouragement.’” Id. Consistent with that mandate, the Court in
Diamond v. Diehr, 450 U.S. 175 (1981) adopted a relatively narrow and more administrable version of the judicial exceptions to the statutory text of 35 U.S.C. § 101
compared to what the Court articulated three years earlier in Parker v. Flook, 437 U.S. 584 (1978). Under

79a
Diehr’s “claim as a whole” principle, which does not divide the claim into new versus old elements, Athena’s
claims, particularly claims 7 and 9, likely would have
been found to be directed to a patent-eligible process
comprising a set of technical, transformative steps to
test a patient for a particular medical condition. But in
Mayo Collaborative Services v. Prometheus Laboratories, Inc., 566 U.S. 66 (2012), the Court set forth an inventive concept/point of novelty framework, which is a
more far-reaching, aggressive version of the judicial exceptions to the statute and is largely incompatible with
Diehr’s core rationale. At the same time, nothing in
Mayo suggests that it sought to repudiate Diehr’s analysis. While I believe our court would benefit from the
Supreme Court’s guidance as to whether it intended to
override central tenets of Diehr, Mayo’s reasoning is
clear and we are bound by it. Because that analysis requires the affirmance of the district court’s decision to
invalidate Athena’s claims, I concur with this court’s decision to deny the petition for rehearing en banc.
I.

FLOOK AND DIEHR

In Flook, the Court articulated the notion that
something else beyond an algorithm or law of nature
recited in a claim must provide the key “inventive concept” to make a claim patent-eligible. 437 U.S. at 594.
There, the claims recited a formula for computing an
updated alarm limit, a number that signals the presence
of an abnormal temperature, pressure, and flow rate
combination indicating inefficiency or perhaps danger
during catalytic conversion processes. Id. at 585.
While the Court recognized that “a process is not unpatentable simply because it contains a law of nature or
a mathematical algorithm,” id. at 590, it also declared
that “the discovery of such a phenomenon cannot support a patent unless there is some other inventive con-

80a
cept in its application.” Id. at 594. Because the recited
field of use of catalytic conversion of hydrocarbons was
“well known,” and the formula received no credit in the
analysis, the Court concluded that Flook’s claim “contains no patentable invention.” Id. The Court indicated
that it had considered the claim “as a whole,” but it did
so by reviewing the claim on an element-by-element
basis in search of something new and inventive, discounting the formula as “assumed to be within the prior
art.” Id. In so doing, the Court found no novel “inventive concept” in the claim. Id.
The Court advanced a very different analytic approach for the judicial exceptions in Diamond v. Diehr,
450 U.S. 175 (1981), one that is difficult to reconcile with
much of Flook’s reasoning. The Court held patenteligible under § 101 a claim for a process of constantly
measuring the temperature inside a molding press to
determine when to remove a cured rubber product. Id.
at 192–93. The relationship between temperature and
cure relied on a known mathematical equation, but the
Court found that, when the overall patent claim was
considered as a whole, the respondents did “not seek to
patent a mathematical formula,” but instead “[sought]
protection for a process of curing synthetic rubber.” Id.
at 187. Rejecting a point of novelty inquiry for § 101,
the Court stated: “The ‘novelty’ of any element or steps
in a process, or even of the process itself, is of no relevance in determining whether the subject matter of a
claim falls within the § 101 categories of possibly patentable subject matter.” Id. at 188–89; id. at 193 n.15
(“The fact that one or more of the steps in [a claimed]
process may not, in isolation, be novel or independently
eligible for patent protection is irrelevant to the question of whether the claims as a whole recite subject matter eligible for patent protection under § 101.”) (empha-

81a
sis in original); see also id. at 190 (“The question therefore of whether a particular invention is novel is ‘wholly
apart from whether the invention falls into a category of
statutory subject matter.’” (quoting In re Bergy, 596
F.2d 952, 961 (C.C.P.A. 1979))).
Furthermore, Bilski recognized the interplay between Diehr and Flook, pointing out that Diehr “established a limitation on the principles articulated in
[Gottschalk v.] Benson and Flook” in that “Diehr emphasized the need to consider the invention as a whole,
rather than ‘dissect[ing] the claims into old and new elements … in the analysis.’” Bilski, 561 U.S. at 611
(quoting Diehr, 450 U.S. at 188). Thus, as recently as
Bilski, the Court understood Diehr as requiring consideration of the claim as a whole, including any mathematical formula or scientific principle, in the § 101 inquiry, and as rejecting any dissection of the claim in
search of novel or unconventional components.
Aside from reaffirming the result in Flook, the
Diehr Court addressed Flook’s takeaway meaning at
two different points in the opinion. First, Diehr observed: “Our recent holdings in Gottschalk v. Benson,
supra, and Parker v. Flook, supra, both of which are
computer-related, stand for no more than [the] longestablished principles” that “[e]xcluded from such patent protection are laws of nature, natural phenomena,
and abstract ideas.” 450 U.S. at 185 (citing Flook and
other cases describing the judicial exceptions, e.g., “[a]
principle[] in the abstract … cannot be patented.”).
Second, Diehr explained the defect in the Flook claim
in the following way: “A mathematical formula does
not suddenly become patentable subject matter simply
by having the applicant acquiesce to limiting the reach
of the patent for the formula to a particular technological use … . All the application provided was a ‘formula

82a
for computing an updated alarm limit.’” Id. at 192 n.14
(quoting Flook, 437 U.S. at 586). The Diehr Court thus
regarded the Flook claim as merely reciting a formula
that would be applicable in an industrial process, but
not reciting an industrial process itself.1 Aside from
these two points, Diehr did not restate any other principles expressed in Flook.
That Diehr established a limitation on Flook and
rejected the point of novelty/inventive concept approach to patent eligibility is underscored by the protests within the Diehr dissent. See Diehr, 450 U.S. at
204–16. “Proper analysis,” in the dissent’s view, “must
start with an understanding of what the inventor
claims to have discovered—or phrased somewhat differently—what he considers his inventive concept to
be.” Id. at 212. Because the claim had “no other inventive concept” other than the addition of a mathematical algorithm to the otherwise conventional
claimed process for curing rubber, the dissent would
have found the Diehr claim ineligible. Id. at 213–14.
The Diehr majority responded: “In order for the dissent to reach its conclusion it is necessary for it to read
out of respondents’ patent application all the steps in
the claimed process which it determined were not novel
or ‘inventive.’ That is not the purpose of the § 101 inquiry and conflicts with the proposition recited above
that a claimed invention may be entitled to patent protection even though some or all of its elements are not
‘novel.’” Id. at 193 n.15.
1

Citing Flook, the Diehr Court also stated that “insignificant
post-solution activity will not transform an unpatentable principle
into a patentable process.” Id. at 191–92. What that meant (preMayo) was not clear, but, at the time, it could be read to refer to
the fact that Flook’s claim did nothing more than “limit the use of
the formula to a particular technological environment.” Id. at 191.

83a
Given Diehr’s evident disagreement with Flook’s
analysis, Diehr, as the later opinion, was widely understood to be the guiding, settled precedent on § 101 for
three decades. See, e.g., Arrhythmia Research Tech.,
Inc. v. Corazonix Corp., 958 F.2d 1053, 1057 n.4 (Fed.
Cir. 1992) (“Although commentators have differed in
their interpretations of Benson, Flook, and Diehr, it
appears to be generally agreed that these decisions
represent evolving views of the Court, and that the
reasoning in Diehr not only elaborated on, but in part
superseded, that of Benson and Flook.”) (citing R.L.
Gable & J.B. Leaheey, The Strength of Patent Protection for Computer Products, 17 Rutgers Computer &
Tech. L.J. 87 (1991); D. Chisum, The Patentability of
Algorithms, 47 U. Pitt. L. Rev. 959 (1986)); see also
Edward W. Roush, Jr., Patent Law-Patentable Subject
Matter-Manufacturing Process Which Includes Use of
Mathematical Formula and Computer Program Constitutes Patentable Subject Matter, 13 St. Mary’s L.J.
420, 428–29 (1981) (“The Diehr Court’s holding is entirely consistent with title 35, section 101 subject matter standards. Although both the majority and dissent
acknowledged that Diehr presented a section 101 statutory subject matter question, the dissent improperly
injected considerations of section 102 novelty into its
analysis. The majority in Flook employed the same rationale.”).
II. MAYO AND ALICE
Three decades after Diehr, Mayo provided a
framework for the judicial exceptions that strongly
tracked the reasoning of Flook and the Diehr dissent.
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66 (2012). The claims in Mayo were for a
method of optimizing the treatment of an immunemediated gastrointestinal disorder comprising two

84a
physical steps: (1) administering a synthetic drug to a
patient, and (2) determining the concentration level of
certain metabolic byproducts in the patient’s bloodstream. The claims also included two “wherein” clauses, reciting that the measured level indicates whether
the patient has received a safe and effective dose. Id.
at 74–75. The Court found that the “wherein” clauses
incorporate a law of nature: the relationship between
concentrations of certain metabolites in the blood and
the likelihood that a thiopurine drug dosage will prove
ineffective or cause harm. Id. at 78. Because the two
physical steps were well-known in the prior art, the
Mayo Court characterized these claims as adding to
that law of nature nothing more than “well-understood,
routine, conventional activity.” Id. at 73, 79–80.
Citing primarily to Flook, as well as Bilski, the
Court stated that its prior decisions “insist that a process that focuses upon the use of a natural law also contain other elements or a combination of elements, sometimes referred to as an ‘inventive concept,’ sufficient to
ensure that the patent in practice amounts to significantly more than a patent upon the natural law itself.”
Id. at 72–73. Because, in the Court’s view, “the steps in
the claimed processes (apart from the natural laws
themselves) involve well-understood, routine, conventional activity previously engaged in by researchers in
the field,” the claims lacked any inventive concept. Id.
at 73. Moreover, the Court did not share the concerns
Diehr expressed as to preserving a doctrinal distinction
between §§ 101 and 102; instead, the Court noted: “We
recognize that, in evaluating the significance of additional steps [beyond the law of nature] the § 101 patent
eligibility inquiry and, say, the § 102 novelty inquiry
might sometimes overlap.” Id. at 90. Mayo’s rationale

85a
thus follows the point of novelty/inventive concept reasoning of Flook and the Diehr dissent.
As such, Mayo is in considerable tension with
Diehr’s instruction to consider claims “as a whole” and
Diehr’s disapproval of dissecting claims into elements
and ignoring non-novel elements in the § 101 analysis.
450 U.S. at 188. The Mayo Court indicated that it considered the claimed steps “as an ordered combination,”
but it excluded the law of nature from that review and
concluded that the “ordered combination adds nothing
to the laws of nature that is not already present when
the steps are considered separately.” 566 U.S. at 79. In
other words, after setting aside the law of nature, “any
additional steps consist[ed] of well-understood, routine,
conventional activity already engaged in by the scientific community; and those steps, when viewed as a
whole, add[ed] nothing significant beyond the sum of
their parts taken separately.” Id. at 79–80. The Court
found support for this understanding of the judicial exceptions in Flook, observing that, for the Flook claim,
the steps of monitoring a catalytic conversion process
“were all ‘well known,’ to the point where, putting the
formula to the side, there was no ‘inventive concept’ in
the claimed application of the formula.” Id. at 82. That
type of “ordered combination” review (“putting the
formula to the side”), however, is fundamentally different from Diehr’s “claim as whole” principle, which does
not carve out the judicial exception from the patent eligibility inquiry, nor does it dismiss elements that lack
novelty.2 See Diehr, 450 U.S. at 188–93.

2

Both Mayo and Flook rely on an 1841 English case, Neilson
v. Harford, 1 Web. P. C. 295 (1841), as supporting an “inventive
concept” requirement in which a law of nature is treated as something well-known. Mayo, 566 U.S. at 82–83; Flook, 437 U.S. at

86a
In Alice, the Court reaffirmed this reversion to
Flook, reiterating that, if the claims at issue are directed to laws of nature, natural phenomena, or abstract ideas, then we must ask “what else is there in the
claims before us?” And in doing so, we must “consider
the elements of each claim individually and ‘as an ordered combination’ to determine whether the additional elements ‘transform the nature of the claim’ into a
patent-eligible application.” Alice Corp. Pty. v. CLS

592. There is reason to believe, however, that the decision in
Neilson did not turn on such a premise. See Tilghman v. Proctor,
102 U.S. 707, 723–25(1880) (describing Neilson’s reasoning as
drawing “the true distinction between a mere principle … and a
process by which a principle is applied to effect a useful result.”);
see also Brief of Professors Jeffrey A. Lefstin and Peter S. Menell
as Amici Curiae in Support of Petition for Writ of Certiorari at
15–21, Sequenom, Inc. v. Ariosa Diagnostics, Inc. (2016) (No. 151182) (Lefstin and Menell Br.). Moreover, no Supreme Court patent eligibility case for a process claim prior to Flook relied on an
inventive concept inquiry or assumption that a scientific discovery
should be regarded as well-known. See, e.g., Gottschalk v. Benson,
409 U.S. 63 (1972); Expanded Metal Co. v. Bradford, 214 U.S. 366
(1909); Dolbear v. Am. Bell Tel. Co., 126 U.S. 1 (1888); Tilghman,
102 U.S. ; Cochrane v. Deener, 94 U.S. 780 (1876); Corning v. Burden, 56 U.S. 252 (1853); Le Roy v. Tatham, 55 U.S. 156 (1853) (“A
patent will be good, though the subject of the patent consists in
the discovery of a great, general, and most comprehensive principle in science or law of nature, if that principle is by the specification applied to any special purpose, so as thereby to effectuate a
practical result and benefit not previously attained.” (quoting
Househill Coal & Iron Co. v. Neilson, 1 Web. P. C. 673, 683
(1843))); see also O’Reilly v. Morse, 56 U.S. 62, 114–15,118 (1853)
(quoting same passage from Neilson quoted in Mayo and Flook,
and then stating that “we see nothing” in Neilson “which would
sanction the introduction of any new principle in the law of patents” and relying on “established principles in the American
courts”). Importantly, Diehr’s reasoning, which post-dates Flook
and was controlling authority for 30 years, is incompatible with
the inventive concept approach.

87a
Bank Int’l, 573 U.S. 208, 217 (2014) (quoting Mayo, 566
U.S. at 78–79) (emphases added). As in Mayo, Alice
described the second step of this analysis “as a search
for an ‘inventive concept’” that discounts the law of nature or abstract idea from that inquiry. Id. (quoting
Mayo, 566 U.S. at 72–73); see also id. at 221 (“A claim
that recites an abstract idea must include ‘additional
features’ to ensure ‘that the [claim] is more than a
drafting effort designed to monopolize the [abstract
idea].’” (quoting Mayo, 566 U.S. at 77)).3
When it comes to applying the judicial exceptions,
it bears noting that the Mayo analytical approach is
considerably harder to apply consistently than the
Diehr framework, and more aggressive in its reach.
Consider the claim in Mayo. If that claim had recited
just the single step of administering a synthetic drug to
a patient, that single-step claim would be patenteligible, but lack novelty under § 102. And if that claim
added a second step for determining the subsequent
level of a non-naturally occurring metabolite in a patient, that claim also would pass muster under § 101,
but lack novelty. But when the claim further recites a
relationship between a metabolite level and its efficacy
in a patient, that claim suddenly would be invalid under
§ 101 for violating the law of nature exception. In other
words, steps 1 and 2 now get pushed aside and declared
insignificant, and the last step is designated as the “focus” of the claim, i.e., the heart of the invention. The
notion that adding claim language can convert an oth3

The Alice Court, like Mayo and Flook, states that its approach is consistent with the rule that patent claims must be considered as a whole, because it considers the claim elements separately as well as in combination. Alice, 573 U.S. at 218 n.3. But, as
explained supra, this approach is wholly unlike Diehr’s understanding of evaluating the claim “as a whole.”

88a
erwise patent-eligible claim into a patent-ineligible
claim is counterintuitive and a very difficult thing to
explain to 8,000 patent examiners.4 Moreover, the process of determining what the claim is “really about”
when the claim is viewed in pieces, rather than as a
whole, can be highly subjective and impressionistic.
This approach puts courts and examiners in the position of assigning value judgments to individual limitations, designating some as “significant” and others as
“insignificant,” and hoping everyone else reaches the
same conclusion as to whether the claim contains a truly meritorious inventive contribution as opposed to a
judicial exception embellished with insignificant window dressing. And all this just to resolve the threshold
question of whether an invention is eligible for the patent system.
As written, Mayo requires a patent claim to have
an inventive concept apart from the recitation of a natural law. That requirement has consequences that go
beyond the facts of Mayo and is certainly clear enough
that we are obliged to follow it. But, as explained
above, Mayo’s framework is in tension on its face with
Diehr, which was equally clear in requiring that a patent claim be considered as a whole, without putting
aside any natural law or otherwise dissecting a claim
into new versus old elements. Moreover, nothing in
Mayo suggests that it sought to repudiate anything in
Diehr; it instead suggests that it sought to maintain
continuity with the Court’s prior cases in this area. As
4

That is not to say that the Mayo claim should have been upheld as valid. The “wherein” clauses simply identified a mental
inference from practicing a prior art process, which is insufficient
to distinguish the claim from the prior art. See Brief for United
States as Amicus Curiae, at 26–28, Mayo v. Prometheus, 566 U.S.
66 (2012) (No. 10-1150).

89a
for Flook, the Court in Bilski acknowledged that Diehr
had “established a limitation” on Flook by “emphasiz[ing] the need to consider the invention as a whole,
rather than ‘dissect[ing] the claims into old and new elements … in the analysis.’” Bilski, 561 U.S. at 611
(quoting Diehr, 450 U.S. at 188). Importantly, Mayo
does not say that it nullified this key “limitation” expressed in Diehr. Furthermore, as Judge Dyk points
out in his concurrence, the Court’s opinion in Ass’n for
Molecular Pathology v. Myriad Genetics, Inc., 569 U.S.
576 (2013), which issued after Mayo, could be read as
potentially maintaining an open door for diagnostic
claims such as Athena’s, because they may be regarded as applications of knowledge of discovered natural laws. See Dyk Concurrence at 7. Myriad thus
could suggest that Mayo should not go as far as its language indicates.
Through it all, there is a serious question today in
patent law as to what extent Diehr remains good law in
light of Mayo. We are not in a position to resolve that
question, but the Supreme Court can. Resolution of the
present confusion is important because if Mayo in fact
overruled the principles in Diehr (as reiterated in Bilski), then that would be a significant incursion on the
settled expectations that had existed for 30 years since
Diehr. Relying on the Diehr framework, the Patent Office examined and granted many patents for medical
diagnostic methods, establishing settled expectations in
those granted property rights, and prompted companies and research institutions to organize their conduct
and choices accordingly. Many of these diagnostic
claims, including the ones at issue here, do not hold up
well against Mayo’s more searching, claim dissection
scrutiny.

90a
III. ATHENA’S CLAIMS
Judge Newman, Judge Moore, the petitioner, and
the amici raise several valid concerns. But I believe
the reasoning underlying recent Supreme Court decisions compels us to affirm the district court’s invalidity
determination here. While Diehr long established that
we must evaluate “the claim as a whole” for § 101 purposes, that principle has been considerably undermined, for we’ve been recently instructed to ask for
claims such as Athena’s, “do the patent claims add
enough to their statements of the correlations to allow
the processes they describe to qualify as patent-eligible
processes that apply natural laws?” Mayo, 566 U.S. at
77 (emphases in original). Moreover, “[p]urely ‘conventional or obvious’ ‘[pre]-solution activity’ is normally
not sufficient to transform an unpatentable law of nature into a patent-eligible application of such a law.”
Id. at 79.
It appears to me that, per Mayo, because the association of an antibody and a medical disorder is deemed
to be a law of nature rather than an application of a law
of nature, detecting that law of nature, by using data
gathering steps or devices that can be said to be basic,
conventional, or obvious, fails § 101. This is in contrast
to examples, such as Diehr and Neilson, in which, as
characterized by Mayo, the claimed inventions included
unconventional steps beyond reliance on an abstract scientific principle. Mayo, 566 U.S. at 80–81, 83–84. In
other words, the Supreme Court has made clear that
detecting a law of nature (without more than conventional steps for accessing the law of nature) does not
qualify as a patent-eligible application of a law of nature.
Here, the inventors of Athena’s U.S. Patent No.
7,267,820 discovered an association between the disor-

91a
der myasthenia gravis and the presence of muscle specific tyrosine kinase (MuSK) autoantibodies in a patient’s blood. At issue are claims 7–9 reciting:
1.

A method for diagnosing neurotransmission or developmental disorders related to
muscle specific tyrosine kinase (MuSK) in a
mammal comprising the step of detecting
in a bodily fluid of said mammal autoantibodies to an epitope of muscle specific tyrosine kinase (MuSK).
[…]
7.

A method according to claim 1, comprising
contacting MuSK or an epitope or antigenic
determinant thereof having a suitable label
thereon, with said bodily fluid,
immunoprecipitating any antibody/MuSK
complex or antibody/MuSK epitope or antigenic determinant complex from said bodily fluid and
monitoring for said label on any of said antibody/MuSK complex or antibody/MuSK
epitope or antigen determinant complex,
wherein the presence of said label is indicative of said mammal is suffering from said
neurotransmission or developmental disorder related to [MuSK].

8.

A method according to claim 7 wherein said
label is a radioactive label.

9.

A method according to claim 8 wherein said
label is 125I.

’820 patent, col. 12 ll. 31–35, col. 12 l. 62 – col. 13 l. 9.

92a
We must accept that the association between the
antibody and the disorder is a law of nature. Here, as
in Mayo, data first must be gathered in order to access
and observe the newly-discovered law of nature, and
the claimed steps “simply tell doctors to gather data
from which they may draw an inference in light of the
correlations.” Mayo, 566 U.S. at 79. That claims 7 and
9 do not preempt all ways of observing the law of nature isn’t decisive, as none of the steps recited therein
add anything inventive to the claims. Claim 7’s labeladding and immunoprecipitating steps are conventional, standard techniques in the art of detecting the presence of a law of nature such as a protein; the panel majority opinion notes that these steps do not recite any
improvement in the underlying immunoassay technology. Athena Diagnostics, Inc. v. Mayo Collaborative
Servs., LLC, 915 F.3d 743, 751 (Fed. Cir. 2019).
Claim 9 recites use of a particular label, but one
that was standard to use in the art. This cannot provide the inventive concept under Mayo. As an analogy,
we would not find that a claim directed to an abstract
idea of communicating information through a device
passes muster under § 101 simply because it limits the
claimed device to, say, a Samsung Galaxy®
smartphone. Nor would the Mayo claim be considered
to possess an inventive concept if it had recited that the
initial step of “administering a drug” be performed in a
conventional way, such as orally or intravenously.
One amicus brief points out that § 101 provides that
“[w]hoever invents or discovers” a new or useful process, manufacture, machine or composition of matter
may be entitled to a patent, and that § 100(a) defines
“invention” to mean “invention or discovery.” Brief of
Freenome Holdings Inc. and Achillion Pharm., Inc. as
Amici Curiae in Support of Neither Party, Athena Di-

93a
agnostics, Inc. v. Mayo Collaborative Servs., LLC, 915
F.3d 743 (2019) (No. 17-2508). Section 100 also defines
“process” to include “a new use of a known process, machine, manufacture, composition of matter, or material.” § 100(b). Arguably, Athena’s invention is a claim
for a new use (diagnosing myasthenia gravis) of a
known composition of matter (MuSK autoantibodies).
Moreover, given that the dual “invention or discovery”
structure consistently has been part of every Patent
Act since 1790, this statutory provision suggests that at
least some discoveries, including Athena’s “discovery”
of how to diagnose myasthenia gravis, have always
been contemplated as patentable subject matter. See
Lefstin and Menell Br. at 4–14. However, I am not
aware of the Supreme Court ever addressing the meaning of “discovers” in § 101 separately from “invents,”
and it must be the Supreme Court, and not this court,
that speaks to that statutory question, because the
Court already proclaimed that “[g]roundbreaking, innovative, or even brilliant discovery does not by itself
satisfy the section 101 inquiry.” Myriad, 569 U.S. at
591.
In sum, I do not think the claims here can withstand Mayo’s scrutiny.5 But perhaps when read “as a
whole” under Diehr, claims such as claims 7 and 9 in
this case could be viewed as methods of testing for a
5

While this court is bound by Mayo, I do not believe this
court has turned Mayo into a “per se rule” that bars all medical
diagnostic claims from patent protection. Moore Dissent at 4. Diagnostic claims grounded in novel, non-obvious techniques that
render a given diagnosis possess an inventive concept continue to
be granted. As to the difference in outcomes so far in our § 101
decisions between diagnostic and treatment claims, I agree with
the analysis in Judge Lourie’s concurrence. Lourie Concurrence
at 3–4.

94a
specific medical condition, employing a sequence of
steps that physically transform materials. By no means
do the claims cover a natural principle in the abstract.
Rather, this sounds like a contribution to the “useful
arts” stated in Article I, Section 8, Clause 8 of the U.S.
Constitution. That those physical, transformative steps
may apply conventional techniques for locating an antibody in a sample would not be disregarded in the
threshold inquiry of whether the claimed invention
qualifies as subject matter eligible for the patent system.
New methods for diagnosing medical conditions, as
a general matter, intuitively seem to be the kind of subject matter the patent system is designed for: to encourage the risky, expensive, unpredictable technical
research and development that people would not otherwise pursue in the hope that if they discover something of great medical value, then they will be protected and rewarded for that successful effort with a patent. This category of invention, after all, is not the
same as methods of entering into contracts, or horse
whispering, or speed dating or other methods that animated many of the concerns underlying Bilski. The
kind of lab work undertaken in discovering new diagnostics and performing the steps of such claimed inventions can only be described as being technical in nature.
For several decades before Mayo, this has been the basis for why the Patent Office granted patents for many
medical diagnostics—not just for the law of nature in
the abstract, but as applied in the real-world medical
context to diagnose patient health conditions. In any
meaningful sense, this represents a practical application of the discovered law of nature, that is, it is applied
science in every sense of that term. And it should be

95a
patentable subject matter in a well-functioning patent
system.
CONCLUSION
The most recent Supreme Court opinions are clear
in my view on how to address claims like Athena’s.
Even though Athena’s claims likely would be found patent-eligible under Diehr’s framework, it is not an inferior court’s role to dodge the clear, recent direction of
the Supreme Court. Accordingly, I concur with denial
of the petition for rehearing en banc.

96a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
MOORE, Circuit Judge, with whom O’MALLEY, WALLACH, and STOLL, Circuit Judges, join, dissenting from
the denial of the petition for rehearing en banc.
This is not a case in which the judges of this court
disagree over whether diagnostic claims, like those at
issue in Athena, should be eligible for patent protection. They should. None of my colleagues defend the
conclusion that claims to diagnostic kits and diagnostic
techniques, like those at issue, should be ineligible. The
only difference among us is whether the Supreme
Court’s Mayo decision requires this outcome. The majority of my colleagues believe that our hands are tied
and that Mayo requires this outcome. I believe Mayo

97a
does not. The Patent Act renders eligible the invention
or discovery of any new and useful process. 35 U.S.C.
§ 101. And the patent system exists to promote exactly
this sort of specific, targeted application of a life-saving
discovery, which is characterized by extraordinarily
high initial market entry costs. The claims in this case
should be held eligible, and they are distinguishable
from Mayo.
DIAGNOSTICS ARE PER SE INELIGIBLE
Since Mayo, we have held every single diagnostic
claim in every case before us ineligible. See Cleveland
Clinic Found. v. True Health Diagnostics LLC, 760 F.
App’x 1013 (Fed. Cir. 2019) (“Cleveland Clinic II”);
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 915 F.3d 743 (Fed. Cir. 2019); Roche Molecular
Sys., Inc. v. CEPHEID, 905 F.3d 1363 (Fed. Cir. 2018);
Cleveland Clinic Found. v. True Health Diagnostics
LLC, 859 F.3d 1352 (Fed. Cir. 2017) (“Cleveland Clinic
I”); Genetic Techs. Ltd. v. Merial L.L.C., 818 F.3d 1369
(Fed. Cir. 2016); Ariosa Diagnostics, Inc. v. Sequenom,
Inc., 788 F.3d 1371 (Fed. Cir. 2015); In re BRCA1- and
BRCA2-Based Hereditary Cancer Test Patent Litig.,
774 F.3d 755 (Fed. Cir. 2014); PerkinElmer, Inc. v.
Intema Ltd., 496 F. App’x 65 (Fed. Cir. 2012).1 Despite
1

The district courts are following our lead, holding diagnostic
methods ineligible. See, e.g., Illumina, Inc. v. Ariosa Diagnostics,
Inc., 356 F. Supp. 3d 925 (N.D. Cal. 2018); Genetic Veterinary
Scis., Inc. v. LABOklin GmbH & Co., 314 F. Supp. 3d 727 (E.D.
Va. 2018); Mallinckrodt Hosp. Prods. IP Ltd. v. Praxair Distribution, Inc., No. 15–170–GMS, 2017 WL 3867649 (D. Del. Sept. 5,
2017); Esoterix Genetic Labs. LLC v. Qiagen Inc., No. 14–CV–
13228–ADB, 2016 WL 4555613 (D. Mass. Aug. 31, 2016); Esoterix
Genetic Labs. LLC v. Qiagen Inc., 133 F. Supp. 3d 349 (D. Mass.
2015); Genetic Veterinary Scis., Inc. v. Canine EIC Genetics, LLC,
101 F. Supp. 3d 833 (D. Minn. 2015).

98a
the significance of these diagnostic inventions and the
high costs of developing them, we have held, because of
Mayo, every one of these life-changing inventions and
discoveries ineligible. For example, we held a method
for assessing a patient’s risk of having cardiovascular
disease by detecting a specific enzyme, based on the
discovery of the correlation between the enzyme and
the disease, ineligible. Cleveland Clinic I, 859 F.3d at
1363. Cardiovascular disease is the number one cause
of death in the United States, killing more than 600,000
people per year, and costing over $200 billion annually.2
The diagnostic invention in Cleveland Clinic I allowed
for early diagnosis of cardiovascular disease and had a
better predictive value than the clinically used risk factors employed by physicians at the time. There can be
no argument but that such early diagnoses will save
lives and reduce future treatment costs. But because of
Mayo, such claims were held ineligible. We also held
ineligible claims to a method of screening for alterations in genes linked to hereditary breast and ovarian
cancer. In re BRCA1, 774 F.3d at 765. It is estimated
that breast cancer will kill more than 40,000 people in
2019.3 Again, there is no reasonable dispute that early
diagnoses save lives and future medical costs. To be
clear, the method claims were not to the gene itself
which is found in nature, but rather to a use of the discovered correlation between certain mutations and
breast cancer for diagnostic purposes. In re BRCA1,
774 F.3d at 758. We held ineligible a method for detect-

2

CTRS. FOR DISEASE CONTROL AND PREVENTION, Heart Disease Fact Sheet (Aug. 23, 2017), https://www.cdc.gov/dhdsp/data_
statistics/fact_sheets/fs_heart_disease.htm.
3

NAT’L CANCER INSTITUTE, Cancer Stat Facts: Female
Breast Cancer, https://seer.cancer.gov/statfacts/html/breast.html.

99a
ing tuberculosis, one of the world’s deadliest diseases.4
Roche, 905 F.3d at 1374. And claims to diagnostic
methods related to fetal health, characteristics, and genetic disorders, such as Down syndrome, fared no better. Ariosa, 788 F.3d at 1378; PerkinElmer, 496 F.
App’x at 73. The Ariosa method of detecting fetal abnormalities based on a simple blood test was an absolute game changer. Prior to the Ariosa discovery, such
abnormalities were detected with higher cost and higher risk procedures such as amniocenteses which had the
potential to harm all involved. That brings us to the
Athena claims, which are directed to a method of diagnosing patients with an autoimmune disease using a
protein that had never before been associated with the
disease. Athena, 915 F. 3d at 747. One of every five
patients with the autoimmune disease experienced
symptoms but did not produce the type of autoantibodies previously associated with the disease, and thus
were unable to be diagnosed and properly treated at an
early stage. Id. The claimed diagnostic method in
Athena solved that problem through a specific, narrowly tailored diagnostic process but was nonetheless held
ineligible. None of these diagnostic claims survived because we concluded we had no choice because of Mayo.
We have turned Mayo into a per se rule that diagnostic kits and techniques are ineligible. That per se
rule is “too broad an interpretation of this exclusionary
principle [which] could eviscerate patent law.” Mayo
Collaborative Services v. Prometheus Laboratories,
Inc., 566 U.S. 66, 71 (2012). The Supreme Court has repeatedly cautioned against rigid or per se rules. See,
4

CTRS. FOR DISEASE CONTROL AND PREVENTION, Tuberculosis (TB) Data and Statistics (Dec. 31, 2018), https://www.
cdc.gov/tb/statistics/default.

100a
e.g., Halo Elecs., Inc. v. Pulse Elecs., Inc., 136 S. Ct.
1923, 1932 (2016) (rejecting test which “is unduly rigid”); Octane Fitness, LLC v. ICON Health & Fitness,
Inc., 572 U.S. 545, 551 (2014) (rejecting test as “unduly
rigid”); KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398,
419–20 (2007) (cautioning against “[r]igid preventative
rules”); Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 738 (2002) (preferring that
rules be interpreted “in a flexible way, not a rigid one”);
Warner-Jenkinson Co., Inc. v. Hilton Davis Chem. Co.,
520 U.S. 17, 32 (1997) (declining to adopt a “rigid rule”);
Diamond v. Chakrabarty, 447 U.S. 303, 315 (1980) (declining to create a rule that “inventions in areas not
contemplated by Congress when the patent laws were
enacted are unpatentable per se”).
In his opening statement during The State of Patent Eligibility in America Senate hearings, Senator
Coons recognized that “for medical diagnostics, …
[there is] a presumption against eligibility that is nearly impossible to overcome.” The State of Patent Eligibility in America, Part I: Hearing Before the Subcomm. on Intellectual Property of the S. Comm. on the
Judiciary, 116th Cong. 15:36–45 (2019) (opening statement of Sen. Coons). And testimony from industry
representatives confirmed that industry members and
scholars think “it is unclear whether diagnostic methods are patentable in any meaningful way.” See, e.g.,
The State of Patent Eligibility in America, Part II,
116th Cong. 7 (2019) (written testimony of Hans Sauer,
Ph.D., Deputy General Counsel and Vice President for
Intellectual Property, Biotechnology Innovation Organization (BIO)).
Our fervor for clarity and consistency has resulted
in a per se rule that excludes all diagnostics from eligibility. I do not agree with my colleagues that Mayo re-

101a
quires that all of these claims in all of these cases be
held ineligible. But that is where we are.
I do not fault my colleagues, who under protest
have concluded that they have no choice but to hold the
claims in Athena ineligible because of Mayo. See Athena, 915 F.3d at 753 n.4 (“[W]hether or not we as individual judges might agree or not that these claims only
recite a natural law … the Supreme Court has effectively told us in Mayo that correlations between the
presence of a biological material and a disease are laws
of nature.”); see also Ariosa Diagnostics, Inc. v. Sequenom, Inc., 809 F.3d 1282, 1287 (Fed. Cir. 2015)
(Lourie, J., concurring with denial of reh’g en banc)
(“[I]t is unsound to have a rule that takes inventions of
this nature out of the realm of patent-eligibility … [b]ut
I agree that the panel did not err in its conclusion that
under Supreme Court precedent it had no option other
than to affirm the district court.”). There is surely
some broad language in Mayo which could lead to this
conclusion. I, however, think we have extended Mayo
too far. Reading the entirety of Mayo and the subsequent Myriad decision, the Supreme Court did not intend Mayo to be the “sweeping” decision my colleagues
have concluded it is. See, e.g., Ariosa, 788 F.3d at 1380
(Linn, J., concurring) (“I join the court’s opinion invalidating the claims … only because I am bound by the
sweeping language of the test set out in [Mayo].”); Ariosa, 809 F.3d at 1290 n.3 (Dyk, J., concurring) (stating
that we must “respect the sweeping precedent of
Mayo”); see also id. at 1289 (“[T]here is a problem with
Mayo insofar as it concludes that inventive concept
cannot come from discovering something new in nature
… . Mayo did not fully take into account the fact that
an inventive concept can come not just from creative,
unconventional application of a natural law, but also

102a
from the creativity and novelty of the discovery of the
law itself.”). It is the role of this court to both faithfully
follow Mayo and to determine its reach when facts and
circumstances differ. I dissent from my colleagues’ refusal to rethink our interpretation of Mayo.
DIAGNOSTICS DESERVE PATENT INCENTIVES
“Diagnosis is the foundation of medicine,” and diagnostic techniques and kits when narrowly claimed
are precisely the type of innovation the patent system
exists to promote.5 Diagnostic techniques, while accounting for less than 2.5% of healthcare expenses,
“guide[] approximately 66% of clinical decisions.”6 Diagnostics are an essential category of medical technologies, critical to treating illnesses and saving lives. Diagnostic medicine saves lives and money through early
detection and reduces the need for high cost pharmaceuticals or curative procedures, but developing diagnostic kits and techniques is expensive and time consuming. Development of a new diagnostic test is estimated to cost up to $100 million and to take nearly 10
years.7
5

NAT’L RESEARCH COUNCIL, TOWARD PRECISION MEDIA KNOWLEDGE NETWORK FOR BIOMEDICAL RENEW TAXONOMY OF DISEASE, Epilogue, (2011)
https://www.ncbi.nlm.nih.gov/books/NBK92141/.

CINE: BUILDING
SEARCH AND A
6

UP Rohr et al., The Value of In Vitro Diagnostic Testing in
Medical Practice: A Status Report, PLOS ONE (March 2016),
https://journals.plos.org/plosone/article?id=10.1371/journal.pone.01
49856.
7

I. Okeke et al., Diagnostics as Essential Tools for Containing Antibacterial Resistance, 14 DRUG RESISTANCE UPDATES 95,
101 (April 2011), https://www.sciencedi-rect.com/science/article/
pii/S1368764611000185?via%3Dihub; see also Mystery Solved!
What is the Cost to Develop and Launch a Diagnostic, DIACEU-

103a
Diagnostics economically depend on strong patent
protection. Because they are typically characterized as
“very expensive to develop but relatively cheap to reproduce,” patent protection is required to make it financially viable for continued investment in their development.8 As Senator Tillis explained in his opening
statement during The State of Patent Eligibility in
America Senate hearings, “[w]hy would anyone in their
right mind risk millions if not billions of dollars to develop a product when they have no idea if they’re eligible for protection? From a business perspective, it
simply isn’t worth the risk for many endeavors.”9
Without the possibility of patent protection to recoup
the high costs of research and development associated
with diagnostic techniques and kits, the impact can only
be that there will be fewer advances in diagnostic medicine.10 Industry leaders make clear that absent de(Jan. 15, 2013), https://www.diaceutics.com/?expert-insight
=mystery-solved-what-is-the-cost-to-develop-and-launch-a-diag
nostic (2013) (The average cost of developing a diagnostic in the
U.S. is $50–75 million with development of expansion assays on
existing platforms costing $10–15 million and development of new
platforms costing over $100 million.).

TICS

8

A. Krattiger, Promoting Access to Medical Innovation,
WORLD INTELLECTUAL PROPERTY ORGANIZATION (Sept. 2013),
https://www.wipo.int/wipo_magazine/en/2013/05/article_0002.html.
9

The State of Patent Eligibility in America, Part I, 116th
Cong. 3:32–47 (2019) (opening statement of Sen. Tillis).
10

The State of Patent Eligibility in America, Part II, 116th
Cong. 1–2 (2019) (written testimony of Rick Brandon, Associate.
General Counsel, University of Michigan representing Association
of American Universities) (“[I]nventors and investors often require the protection of a period of exclusivity in order to assume
the substantial risk of investing the significant resources needed
in order to bring a product to the public. In the case of products
that require FDA approval, including diagnostics, this can take

104a
pendable patent protection, companies will not move
forward with diagnostic innovations.11 As investors
routinely recognize, once patent protection over medical technologies is lost, these innovations essentially
become gifts to society and the companies that developed them cannot recoup the time and money they
spent to do so.12 It is these life-saving fields though,
with such high costs to the initial market investor,
where patent protection is critical.
The importance of diagnostics and their costreducing effects on patient treatment cannot reasonably
be questioned. We are hard-pressed to identify facets of
modern medicine that do not employ or rely on diagnostics. Diagnostics are “crucial in mitigating the effect of
disease outbreaks.”13 For example, had diagnostic techyears and millions of dollars. The public benefits from both public
disclosure and a greater assurance of new products and services.”).
11

The State of Patent Eligibility in America, Part III, 116th
Cong. 3 (2019) (written testimony of Peter O’Neill, Executive Director of Cleveland Clinic Innovations) (The “[a]bility to get protectable intellectual property (usually in the form of a patent) is
the first, and most influential factor in our assessment. If an invention can’t get intellectual property protection, usually that is a
fatal flaw and the invention is abandoned at that point.”).
12

M. Rosenblatt, The Real Cost of “High-Priced” Drugs,
HARVARD BUSINESS REVIEW (Nov. 17, 2014), https://hbr.org/
2014/11/the-real-cost-of-high-priced-drugs; The State of Patent
Eligibility in America, Part I, 116th Cong. 1–2 (2019) (written
testimony of Patrick Kilbride, Senior Vice President of the Global
Innovation Policy Center at the U.S. Chamber of Commerce).
13

M. Perkins et al., Diagnostic Preparedness for Infectious
Disease Outbreaks, 390 SCIENCEDIRECT 2211 (2017), https://
www.thelancet.com/journals/lancet/article/PIIS0140-6736(17)3122
4-2/fulltext.

105a
niques been developed before the 2015 Ebola outbreak,
and applied to patients early enough, the populationattack rate of Ebola could have been reduced from 80%
to 0%. Id. Ebola is only one example. “Poor diagnostic
preparedness has [also] contributed to significant delays
in the identification of … Lassa Fever, yellow fever, and
Zika.”14 Disease epidemics are not the only lifethreatening conditions to which diagnostics provide a
meaningful response. Diagnostics are pivotal to addressing the advent and increase in drug-resistant infections. Current estimates project that by 2050, drugresistant infections will “lead to 10 million people dying
every year and … would cost the world up to 100 trillion” dollars.15 Diagnostic tests are a critical component
of the answer to this problem. Methicillin-Resistant
Staphylococcus Aureus (“MRSA”) is an example of an
antibiotic-resistant infection that burdens American
hospitals in terms of morbidity, mortality, and
healthcare costs.16 Its treatment, and the outcome of
that treatment, depends on appropriate diagnosis and
antibiotic administration. Id. And the effects of diagnostics in improving the detection and treatment of cancer, human immunodeficiency virus, as well as in vitro
care should not be overlooked. See Rohr, supra note 6.
14

C. Kelly-Cirino et al., Importance of Diagnostics in Epidemic and Pandemic Preparedness, 4 BMJ GLOBAL HEALTH
(2019), https://gh.bmj.com/content/4/Suppl_2/e001179.
15

J. O’Neill, Antimicrobial Resistance: Tackling a crisis for
the health and wealth of nations, THE REV. ON ANTIMICROBIAL
RESISTANCE, 6 (Dec. 2014).
16

K. Bauer et al., An Antimicrobial Stewardship Program’s
Impact with Rapid Polymerase Chain Reaction MethicillinResistant Staphylococcus Aureus/S. aureus Blood Culture Test in
Patients with S. aureus Bacteremia, 51 CLINICAL INFECTIOUS
DISEASES 1074 (2010).

106a
For example, diagnostics improved medical approaches
to cancer care, and will continue supporting progress in
a field that cost an estimated $125 billion in the United
States in 2010.17 Development of diagnostics plays a
central role in American medical innovation as we face
increasingly robust medical challenges, with a goal to
save lives and improve the quality of those lives.
Not only do diagnostics save lives, they reduce the
cost of treatment. The diagnostic industry drives medical costs down, not up. People suffering from illness or
disease will do whatever they can to find a cure. Proper diagnoses allow for earlier detection of illness and
targeted treatment. But without proper diagnosis, patients have to endure numerous unsuccessful and costly
treatments. Both the financial burden of continued
testing and treatment and the emotional and physical
tolls associated with suffering from symptoms, but not
knowing the cause, can be reduced or even prevented
thanks to diagnostics. And when there are specific advances, discoveries, or inventions in the diagnostics industry, they must be eligible for patent protection.18
Unless one opposes the notion of patent protection
entirely, it cannot be reasonably disputed that claims to
17

A. Mariotto et al., Projections of the Cost of Cancer Care in
the United States: 2010-2020, 103 J. NAT’L CANCER INST. 117, 122
(2011), https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3107566/.
18

See R. Davis, Senate Scrutinizes Patent Bill’s Effect on
Drug Prices, Genes, LAW360 (June 6, 2019), https://www.law360.
com/ip/articles/1164262/senate-crutinizes-patent-bill-s-effect-on-drugprices-genes?nl_pk=c4844ff4-19ab-48d7-b2f9-9fa06ce87648&utm_
source=newsletter&utm_medium=email&utm_campaign=ip (discussing Senator Tillis’ explanation that patent eligibility uncertainty “has undermined investment in new medical research and
could prevent new drugs from being created, making it a moot
point how much they cost”).

107a
diagnostic kits and techniques, like pharmaceuticals,
which require enormous initial investments in terms of
both time and money, are the reason we suffer the
promise of a monopoly. As many have explained, without patent protection, there will be little incentive for
companies to invest the monumental amount of time
and money necessary to develop diagnostic kits, tools
and techniques. A recent article, co-written by Paul
Michel, former Chief Judge of the Federal Circuit, and
David Kappos, former Director of the PTO, states:
This uncertain patent climate has a chilling effect on innovation in biosciences to the detriment of public health. … [I]nvestors are less
interested in funding costly new biomarker diagnostic research. As a result, diseases will go
undiagnosed, and patients will suffer the consequences. … Investment in diagnostics goes
to the core of containing spiraling health care
costs, improving patient outcomes and treating
illnesses before they become debilitating to suffering Americans.19
This sentiment was echoed by industry leaders during
The State of Patent Eligibility in America Senate hearings held on June 4–5 & 11, 2019. See The State of Patent Eligibility in America, Part II, 116th Cong. 6–7
(2019) (written testimony of Hans Sauer, Ph.D., Deputy
General Counsel and Vice President for Intellectual
Property, BIO) (“Absent the ability to protect their
discoveries with valid patents … companies would lack
the necessary incentive to make the risky, expensive,
19

D. Kappos & P. Michel, Supreme Court Patent Decisions
are Stifling Health Care Innovation, MORNING CONSULT (Oct. 29,
2018), https://morningconsult.com/opinions/supreme-court-patentdecisions-stifling-health-care-innovation/.

108a
and time-consuming investments in research and development often required to bring new technologies to
market.”); The State of Patent Eligibility in America,
Part II, 116th Cong. 9 (2019) (written testimony of
Henry Hadad, President, IPO) (“[C]onfusion about
what is patent-eligible discourages inventors from pursuing work in certain technology areas, including discovering new genetic biomarkers and developing diagnostic and artificial intelligence technologies. [This]
uncertainty disincentivizes the enormous investment in
research and development that is necessary to fuel the
innovation cycle.”); The State of Patent Eligibility in
America, Part I, 116th Cong. 14:46–15:05 (2019) (opening statement of Sen. Coons) (“I worry that this continuing lack of clarity … has led to reduced investment in
the expensive and intensive research and development
necessary to develop next generation cures … ”); The
State of Patent Eligibility in America, Part III, 116th
Cong. 1:22:12–1:22:35 (2019) (testimony of Peter
O’Neill, Executive Director of Cleveland Clinic Innovations) (“The work of translating discovery into commercial products requires [patent] protection to justify
the investment into those discoveries. And absent clarity … we are not moving forward diagnostic discoveries
to translate them into commercial products the way we
would do otherwise.”); The State of Patent Eligibility
in America, Part III, 116th Cong. 1:42:12–1:42:28 (2019)
(testimony of Corey Salsberg, Vice President and
Global Head Intellectual Property Affairs for Novartis)
(“Make no mistake about section 101, this is the gateway to the patent system. So what that means in practical terms is it’s a guide as to which fields of technologies can support sustained investment, and which ones
likely cannot, and that’s why we have such deep concerns about the status quo.”); The State of Patent Eligibility in America, Part III, 116th Cong. 1 (2019)

109a
(written testimony of Robert Deberardine, Chief Intellectual Property Counsel, Johnson & Johnson) (“It is
only because of the United States patent system, and
the predictability that it has historically provided, that
we have been able to make the investments, conduct
the research, and take the risks required to develop
these treatments. And only with predictability will we
be able [to] solve today’s most challenging healthcare
problems and develop the groundbreaking treatments
of tomorrow. Unfortunately, the patent system in the
United States today is anything but predictable.”).
The math is simple, you need not be an economist
to get it: Without patent protection to recoup the
enormous R&D cost, investment in diagnostic medicine
will decline. To put it simply, this is bad. It is bad for
the health of the American people and the health of the
American economy. And it is avoidable depending on
our interpretation of the Supreme Court’s holding in
Mayo. I have no doubt that my colleagues agree with
the sentiments herein that diagnostics are important,
and that patent protection of such diagnostics is critical
to incentivizing their very existence. The only point
upon which we disagree is over the breadth of the
Mayo holding.
ATHENA’S SPECIFICALLY CLAIMED
METHOD IS ELIGIBLE
While Mayo did not require the result the panel
reached in this case, the panel could not disregard our
binding precedent of cases like Ariosa, Cleveland Clinics, and Roche which have interpreted Mayo as requiring this per se rule. Thus, the only hope was en banc
action.
It is my view that § 101 and Mayo, when read together and in their entireties, compel the holding that

110a
the claims in Athena are eligible. Under the Patent
Act, “[w]hoever invents or discovers any new and useful process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.” 35 U.S.C. § 101. Our
decisions have ignored the truth that claims to specific,
narrow processes, even if those processes involve natural laws, are not directed to the natural laws themselves. And contrary to the “elementary principle that
… [we must] ‘give effect, if possible, to every clause
and word of a statute,’” our § 101 jurisprudence has
largely ignored Congress’ explicit instruction that a
discovery can be the basis for a patentable invention.
King v. Burwell, 135 S. Ct. 2480, 2498 (2015) (quoting
Montclair v. Ramsdell, 107 U.S. 147, 152 (1883)). Section 101 refers to both “invent[ion] or discover[y],” and
§ 100(a) expressly defines invention as any “invention
or discovery.” We have misread Mayo and how it fits
within the framework of the judicially-created exceptions to § 101 for laws of nature, natural phenomena,
and abstract ideas.
Laws of nature, natural phenomena, and abstract
ideas are considered “the basic tools of scientific and
technological work.” Alice Corp. Pty. Ltd. v. CLS Bank
Int’l, 573 U.S. 208, 216 (2014) (quoting Assoc. for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S.
576, 589 (2013)). The Supreme Court excepted these
categories from § 101 to ensure that patent law does
not “‘inhibit further discovery by improperly tying up
the future use of’ these building blocks of human ingenuity.” Id. (quoting Mayo, 566 U.S. at 85). Accordingly, “patents cannot issue for the discovery” of a law of
nature. Funk Bros. Seed Co. v. Kalo Inoculant Co., 333
U.S. 127, 130 (1948). Nor can a claim to the law of na-

111a
ture become patentable by simply “adding the words
‘apply it.’” Mayo, 566 U.S. at 72 (citing Gottschalk v.
Benson, 409 U.S. 63, 71–72 (1972)). But “an application
of a law of nature … to a known structure or process
may well be deserving of patent protection.” Id. at 71
(quoting Diamond v. Diehr, 450 U.S. 175, 187 (1981)).
We have chosen to ignore the legal space between
these principles in favor of a swiftly executing, per se
rule that all diagnostic claims are ineligible. That conclusion is in-correct.
By distinguishing between claims that recite a law
of nature and simply add the words “apply it,” and
claims that recite a concrete application of a law of nature, the Supreme Court suggests we should consider
the level of specificity in the claims to determine
whether the claim is even directed to the natural law.
See Alice, 573 U.S. at 223 (“[I]f a patent’s recitation of a
computer amounts to a mere instruction to implement
an abstract idea on a computer, that addition cannot
impart patent eligibility.”)); Mayo, 566 U.S. at 72 (“[T]o
transform an unpatentable law of nature into a patenteligible application of such a law, one must do more
than simply state the law of nature while adding the
words ‘apply it.’”); Diehr, 450 U.S. at 192 (“[W]hen a
claim recites a mathematical formula (or scientific principle or phenomenon of nature), an inquiry must be
made into whether the claim is seeking patent protection for that formula in the abstract. … [W]hen a claim
containing a mathematical formula implements or applies that formula in a structure or process which, when
considered as a whole, is performing a function which
the patent laws were designed to protect (e.g., transforming or reducing an article to a different state or
thing), then the claim satisfies the requirements of
§ 101.”).

112a
The law of nature at issue in Mayo was the “relationship between concentrations of certain metabolites
in the blood and the likelihood that a dosage of a thiopurine drug will prove ineffective or cause harm.” 566
U.S. at 77. Importantly, this relationship was not a
new discovery. “At the time the discoveries embodied
in the patents were made, scientists already understood that the levels in a patient’s blood of certain metabolites … were correlated with the likelihood that a
particular dosage of thiopurine drug could cause harm
or prove ineffective.” Id. at 73. While the inventors
characterized the precise correlation, they could not be
said to have discovered the relationship in the first
place.
The Court began its analysis with the statement
that “[i]f a law of nature is not patentable, then neither
is a process reciting a law of nature, unless that process
has additional features that provide practical assurance
that the process is more than a drafting effort designed
to monopolize the law of nature itself.” Id. at 77–78. It
examined the limitations of the representative claim,
which recited:
A method of optimizing therapeutic efficacy for
treatment of an immune-mediated gastrointestinal disorder, comprising:
(a) administering a drug providing 6thioguanine to a subject having said
immune-mediated gastrointestinal disorder; and
(b) determining the level of 6thioguanine in said subject having said
immune-mediated gastrointestinal disorder,

113a
wherein the level of 6-thioguanine less
than about 230 pmol per 8×108 red
blood cells indicates a need to increase
the amount of said drug subsequently
administered to said subject and
wherein the level of 6-thioguanine
greater than about 400 pmol per 8×108
red blood cells indicates a need to decrease the amount of said drug subsequently administered to said subject.
Id. at 74–75.
This claim in its entirety did nothing more than describe the natural relationship between metabolite concentrations and the effective dose of a thiopurine drug.
Id. at 77. “Unlike, say, a typical patent on a new drug
or a new way of using an existing drug, the patent
claims d[id] not confine their reach to particular applications of those laws.” Id. at 87. The claimed steps
were set forth in “highly general language covering all
processes that make use of the correlations … including
later discovered processes that measure metabolite
levels in new ways.” Id. at 87. Due to their breadth,
the Supreme Court concluded that upholding the claims
“would risk disproportionately tying up the use of the
underlying natural laws, inhibiting their use in the
making of further discoveries.” Id. at 73; see also id. at
87 (holding that “the basic underlying concern that
these patents tie up too much future use of laws of nature” reinforced the holding of ineligibility). “[S]imply
appending conventional steps, specified at a high level
of generality,” to the law of nature did not make that
law patentable. Id. at 82 (emphasis added).
The breadth and generality of the Mayo claims led
to their demise, as they recited nothing more than the

114a
natural law. We have since ignored these considerations, treating every claim that includes a law of nature
as directed to that law, even if the claim as a whole recites a specific way of applying that law of nature to a
new and useful end. We should not ignore the considerations related to claim breadth articulated in Mayo in
our § 101 analysis.
The Athena claims differ significantly from the
Mayo claims. In 1960, before the invention claimed in
U.S. Patent No. 7,267,820 (“the ’820 patent”), scientists
identified a specific category of autoantibodies that
bind to and interfere with the acetyl choline receptor
(AChR)—which is responsible for the transmission of
signals from neurons to muscle cells—cause Myasthenia gravis (“MG”). ’820 patent at 1:24–26. The presence of these anti-AChR antibodies thus indicates that
the patient suffers from MG. However, 20% of patients
who manifested MG-like symptoms did not have the
anti-AChR antibodies. Id. at 1:34–40. It was unknown
if this 20%, “have the same or a distinct and separate
MG condition,” id. at 1:41–42, and there was “no basis
for providing an immediate clinical diagnosis for such
patients,” id. at 4:20–22.
The inventors of the ’820 patent discovered that a
different type of autoantibody that binds to and interferes with muscle-specific tyrosine kinase (MuSK)—
another receptor also known to help transmit signals
from neurons to muscles—can also cause MG. Id. at
1:54–61 (“The present inventors surprisingly found that
many of the 20% of MG patients which do not exhibit
any autoantibodies to AChR, instead have IgG antibodies … indicating that they are afflicted with a form of
MG which has a different etiology … ”). The inventors
in Athena discovered that these MG sufferers produced
the anti-MuSK antibody, and created a process for di-

115a
agnosing MG using methods that detect the presence of
that antibody. These methods had never before been
used to diagnose MG. Claims 7 and 9, on which the majority focused in Athena, require the use of specific laboratory techniques to diagnose a patient based on the
natural law that 20% of people having MG produce autoantibodies to the MuSK protein. Claim 7 recites:
1. A method for diagnosing neurotransmission
or developmental disorders related to muscle
specific tyrosine kinase (MuSK) in a mammal
comprising the step of detecting in a bodily fluid of said mammal autoantibodies to an epitope
of muscle specific tyrosine kinase (MuSK).
7. A method according to claim 1, comprising
contacting MuSK or an epitope or antigenic determinant thereof having a suitable label
thereon, with said bodily fluid, immunoprecipitating any antibody/MuSK complex or antibody/MuSK epitope or antigenic determinant
complex from said bodily fluid and monitoring
for said label on any of said antibody/MuSK
complex or antibody/MuSK epitope or antigen
determinant complex, wherein the presence of
said label is indicative of said mammal is suffering from said neurotransmission or developmental disorder related to muscle specific tyrosine kinase (MuSK).
’820 patent at Claims 1, 7.
The claims provide for a method of diagnosing patients with MG using the following concrete steps: (1)
contacting the patient’s bodily fluid with labeled MuSK,
MuSK epitope, or other antigenic determinant that
binds any anti-MuSK antibodies that may be present in
the bodily fluid; (2) immunoprecipitating any resulting

116a
complexes from the bodily fluid; and (3) detecting the
presence of the anti-MuSK antibody by monitoring for
the label, whereby the presence of the label indicates a
diagnosis of MG. Id. These steps are not set out at the
“high level of generality” that concerned the Court in
Mayo, and they specifically confine their reach to a specific application of the relationship between anti-MuSK
antibodies and MG. While the combination of steps in
Mayo amounted to little “more than an instruction to
doctors to apply the applicable laws when treating their
patients,” 566 U.S. at 79, claim 7 in Athena is a single,
specific method for applying the applicable law.
Indeed, the majority in this case repeatedly
acknowledged that the claims in Athena, unlike the
claims in Mayo, contain specific, concrete steps applying the law of nature. See, e.g., Athena, 915 F.3d at 751
(“The claims at issue here involve both the discovery of
a natural law and certain concrete steps to observe its
operation.”). As the majority further acknowledged,
claim 9, which depends on claim 7, “leaves open to the
public other ways of interrogating the correlation between MuSK autoantibodies and MuSK-related disorders without practicing the claim’s concrete steps.” Id.
at 752. In fact, the ’820 patent identifies alternate
methods for detecting antibodies, such as MuSKrelated antibodies. See ’820 patent at 3:33–4:12. The
claims do not “broadly preempt the use of a natural
law,” and do not prevent any scientist from using the
natural law in association with other common processes. Mayo, 566 U.S. at 72; see Myriad, 569 U.S. at 595–
96. The concreteness and specificity of the claims in
Athena moves them from reciting a law of nature to a
particular application of a law of nature. The claims are
not directed to a natural law or phenomenon.

117a
The inventiveness of the claimed discovery in the
process steps should also be considered when assessing
eligibility. New and useful discoveries, such as the before unknown relationship between anti-MuSK autoantibodies and MG, when applied in a “process,” should
pass muster as eligible under the statutory text of
§ 101. Our decision to entirely disregard the discovery
incorporated in the claims is a misapplication of the
statute. This is not to say that a claim on the discovery
of a law of nature itself or a natural phenomenon should
be eligible. I agree it should not. But to wholly ignore
the inventiveness of the discovery when assessing patent eligibility closes our eyes to the statute enacted by
Congress. Athena discovered that 20% of people suffering from MG generate autoantibodies that bind to a
MuSK protein. Its claims recite concrete steps to detect the presence of autoantibodies to MuSK to diagnose MG. These antibody/MuSK complexes had never
been used by prior art MG diagnostic tests. In contrast, the claims in Mayo recited a generic “determining” step, with no laboratory test at all specified by the
claims, and the specification itself stated that the methods were “well-understood, routine, and conventional
activity already engaged in by the scientific community.” 566 U.S. at 79. Moreover, the Court explained
that scientists had routinely performed that very step
on thiopurine metabolites, the metabolite being detected in the claim. Id. at 78. This is not at all the case in
Athena. The claims are directed to a new and useful
process of specific, concrete steps for diagnosing MG
using a particular immunoassay that had never been
previously used to diagnose MG. The claims should be
held patent eligible under § 101 and Mayo.
I do not believe that the Supreme Court intended
Mayo to be the sweeping decision it has become. In-

118a
deed, it warned us that “too broad an interpretation of”
its judicial exceptions to eligibility “could eviscerate
patent law” because “all inventions at some level embody, use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas.” Mayo, 566 U.S.
at 71. I do not understand Mayo to render ineligible a
claim which covers a specific, concrete application of a
natural law simply because such a claim is diagnostic as
opposed to therapeutic. Both should be eligible. The
last word on this from the Supreme Court came in Myriad where the Court made clear “patents on new applications of knowledge about BRCA1 and BRCA2 genes”
could be eligible. 569 U.S. at 596. To the extent that
this Court has read Mayo so broadly that it precludes
exactly that sort of patent, we have erred. Doing so
leaves Mayo at odds with the patent statutes and the
later Myriad decision.
CONCLUSION
“It’s important for the judiciary to first recognize
that there is a problem that needs to be addressed …
101 remains the most important substantive patent law
issue in the United States today. And it’s not even
close.” R. Davis, Courts Can Resolve Patent Eligibility Problems, Iancu Says, LAW 360 (Apr. 11, 2019)
(quoting U.S. Patent and Trademark Office Director
Iancu). In the wake of Mayo, we have painted with a
broad brush, suggesting that improved diagnostic techniques are not patent eligible. Mayo did not go so far,
and given the import of diagnostic techniques, we
should reconsider this case and clarify our precedent.
Because my colleagues have declined to do so, there are
no more options at this court for diagnostic patents.
My colleagues’ refusal deflates the Amici’s hopeful suggestion that our precedent leaves the eligibility of a diagnostic claim in front of the Federal Circuit “uncer-

119a
tain.” It is no longer uncertain. Since Mayo, every diagnostic claim to come before this court has been held
ineligible. While we believe that such claims should be
eligible for patent protection, the majority of this court
has definitively concluded that the Supreme Court prevents us from so holding. No need to waste resources
with additional en banc requests. Your only hope lies
with the Supreme Court or Congress. I hope that they
recognize the importance of these technologies, the
benefits to society, and the market incentives for
American business. And, oh yes, that the statute clearly permits the eligibility of such inventions and that no
judicially-created exception should have such a vast
embrace. It is neither a good idea, nor warranted by
the statute. I dissent.

120a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
NEWMAN, Circuit Judge, with whom WALLACH, Circuit Judge, joins, dissenting from denial of the petition
for rehearing en banc.
The majority of the court has voted not to rehear
this case en banc. I write again in dissent because of
the importance of medical diagnosis and the critical role
of the patent system in achieving new diagnostic methods. Diagnostic methods are costly in research and development, from scientific discovery through federal
approval, and are of substantial public benefit—
exemplified by Athena’s method of diagnosing Myasthenia Gravis in persons previously undiagnosable.
The patent system provides the economic foundation
for the cycle of experimental study, clinical evaluation

121a
and proof, and implementation in commerce. This
foundation applies to diagnosis as well as to treatment.
The panel majority held that the new diagnostic
method in U.S. Patent No. 7,267,820 (“the ’820 patent”)
was not eligible for patenting under section 101 of the
Patent Act. Athena Diagnostics, Inc. v. Mayo Collaborative Servs., LLC, 915 F.3d 743 (Fed. Cir. 2019)
(Newman, J., dissenting). The panel majority stated
that “the Supreme Court has effectively told us in
Mayo that correlations between the presence of a biological material and a disease are laws of nature,” and
therefore methods for determining previously unknown
correlations for diagnostic purposes are not patenteligible. Id. at 753 n.4.
The majority’s position is a flawed interpretation of
the Court’s decision in Mayo Collaborative Services v.
Prometheus Laboratories, Inc., 566 U.S. 66 (2012). The
Court did not hold that methods of diagnosis are subject to unique patent-eligibility rules. We have mistakenly enlarged the Court’s holding, in substance and in
application. Rehearing en banc is warranted.
I summarize the reasons for concern:
I
The Supreme Court’s Mayo decision did not
convert diagnostic methods into laws of nature
Until Athena’s invention of the diagnostic method
described in the ’820 patent, some 20% of patients suffering from Myasthenia Gravis were not capable of being diagnosed. The ’820 patent describes and claims a
multi-step method wherein for such patients the presence in bodily fluid of autoantibodies to a protein, muscle-specific tyrosine kinase (MuSK), is detected by
“binding of a MuSK or its epitope, together with a re-

122a
vealing label, to the autoantibodies in the serum or bodily fluid.” ’820 patent, col. 3, l. 66–col. 4, l. 2. The ’820
patent explains that “[t]he present inventors surprisingly found that many of the 20% of MG patients which
do not exhibit any autoantibodies to AChR [acetyl choline receptor] instead have IgG [immuno-globulin] antibodies directed against the extracellular N-terminal
domains of MuSK.” Id., col. 1, ll. 54–57.
These antibodies and their reaction with the MuSK
protein were not known, nor the use of this procedure
to diagnose Myasthenia Gravis. The separate chemical
steps of radioactive labelling, reaction of an antibody
with a protein, separation of the reaction product, and
analysis of radioactivity, are described in the specification as conducted by conventional methods. However,
the panel majority held that this new diagnostic method is not patent-eligible, stating that “claims 7–9 are
directed to a natural law because the claimed advance
was only in the discovery of a natural law, and that the
additional recited steps only apply conventional techniques to detect that natural law.” Athena, 915 F.3d at
751. This statement is a misapplication of the patent
statute, and a misperception of the Court’s decision in
Mayo.
At issue are patent claims 7–9, shown with claim 1
from which they depend:
1. A method for diagnosing neurotransmission or developmental disorders related to
muscle specific tyrosine kinase (MuSK) in a
mammal comprising the step of detecting in a
bodily fluid of said mammal autoantibodies to
an epitope of muscle specific tyrosine kinase
(MuSK).

123a
7. A method according to claim 1, comprising
contacting MuSK or an epitope or antigenic
determinant thereof having a suitable label
thereon, with said bodily fluid,
immunoprecipitating any antibody/MuSK
complex or antibody/MuSK epitope or antigenic determinant complex from said bodily fluid
and
monitoring for said label on any of said antibody/MuSK complex or antibody/MuSK
epitope or antigen determinant complex,
wherein the presence of said label is indicative of said mammal is suffering from said neurotransmission or developmental disorder related to muscle specific tyrosine kinase
(MuSK).
8. A method according to claim 7 wherein
said label is a radioactive label.
9. A method according to claim 8 wherein
said label is 125I [iodine isotope 125].
The reaction between the specified antibodies and
the MuSK protein was not previously known, and the
specified claim steps had not previously been performed, separately or in combination. This method of
diagnosing Myasthenia Gravis and related disorders is
conceded to be new and unobvious.
The ’820 patent specification teaches that each
claim step is conducted by conventional procedures,
that is, procedures for creating a radioactively labelled
compound, reacting an antibody with a protein, separating any antibody-protein complex, and monitoring

124a
the radioactivity of the product. The panel majority
holds that since the separate steps are “conventional,”
they do not count in the section 101 analysis, leaving
claims 7–9 with only the general “concept” of “the correlation between the presence of naturally-occurring
MuSK autoantibodies in bodily fluid and MuSK-related
neurological diseases like MG.” Athena, 915 F.3d at
750. The panel majority concluded that “[t]he ’820 patent thus describes the claimed invention principally as
a discovery of a natural law, not as an improvement in
the underlying immunoassay technology.” Id. at 751.
The Court in Mayo admonished against “too broadly preempt[ing] the use of a natural law.” 566 U.S. at
72. Claims 7–9 claim a new multi-step method of diagnosis; it is incorrect to omit from the claims the steps
by which the method is performed, leaving only the
“concept” of the general purpose. En banc review is
needed to provide consistent and correct application of
statute and precedent to methods of medical diagnosis.
II
Statute and precedent require that the
claimed invention is considered as a whole
The Court explained this principle in KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398 (2007):
[I]nventions in most, if not all, instances rely
upon building blocks long since uncovered, and
claimed discoveries almost of necessity will be
combinations of what, in some sense, is already
known.
Id. at 418–19. The Court had explored this principle in
Diamond v. Diehr, 450 U.S. 175 (1981):
In determining the eligibility of respondents’ claimed process for patent protection un-

125a
der § 101, their claims must be considered as a
whole.
Id. at 188. The Court stressed that:
It is inappropriate to dissect the claims into old
and new elements and then to ignore the presence of the old elements in the analysis.
Id. The Court further explained that this rule applies
to patent eligibility as it does to patentability:
The “novelty” of any element or steps in a process, or even of the process itself, is of no relevance in determining whether the subject matter of a claim falls within the § 101 categories of
possibly patentable subject matter.
Id. at 188–89; see also, e.g., Parker v. Flook, 437 U.S.
584, 594 (1978) (“[A] patent claim must be considered as
a whole.”); Aro Mfg. Co. v. Convertible Top Replacement Co., 365 U.S. 336, 344 (1961) (“[I]f anything is settled in the patent law, it is that the combination patent
covers only the totality of the elements in the claim and
that no element, separately viewed, is within the
grant.”).
This established rule does not evaporate when the
subject matter is a diagnostic method. The Mayo
Court did not effect such a change. The Court reiterated in Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S.
208, 217 (2014), that “an invention is not rendered ineligible for patent simply because it involves an abstract
concept” in some of its claim elements. There is no
support in the Court’s precedent for our abandonment
of the invention-as-a-whole in determining eligibility
under section 101.
The purpose of section 101 is to provide a broad
statutory scope to inventive activity. See Bilski v.

126a
Kappos, 561 U.S. 593, 605 (2010) (“Section 101 is a dynamic provision designed to encompass new and unforeseen inventions.” (internal quotation marks omitted)); Diehr, 450 U.S. at 187 (“[A]n application of a law
of nature or mathematical formula to a known structure
or process may well be deserving of patent protection.”). In Diamond v. Chakrabarty, 447 U.S. 303
(1980), the Court observed that “Congress employed
broad general language in drafting § 101 precisely because such inventions are often unforeseeable,” id. at
316, and that the legislative history of the 1952 Patent
Act showed that “Congress intended statutory subject
matter to ‘include anything under the sun that is made
by man,’” id. at 309 (quoting S. Rep. No. 1979, 82d
Cong., 2d Sess., 5 (1952); H.R. Rep. No. 1923, 82d
Cong., 2d Sess., 6 (1952)). The Mayo Court cautioned
that
too broad an interpretation of this exclusionary
principle could eviscerate patent law. For all
inventions at some level embody, use, reflect,
rest upon, or apply laws of nature, natural phenomena, or abstract ideas.
566 U.S. at 71.
The Federal Circuit has respected this longstanding principle in contexts other than for diagnostic
methods. See, e.g., McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d 1299, 1313 (Fed. Cir.
2016) (“[C]ourts must be careful to avoid oversimplifying the claims by looking at them generally and failing
to account for the specific requirements of the claims.”
(internal quotation marks omitted)). However, we
have strayed in our rulings on diagnostic methods; our
flawed analysis is summarized by the majority in Athena, 915 F.3d at 753 n.4 (“We have since confirmed that

127a
applying somewhat specific yet conventional techniques
… to detect a newly discovered natural law does not
confer eligibility under § 101.”).
When viewed on correct law and precedent, Athena’s diagnostic method meets the requirements of section 101. The appropriate analysis of patentability is
under sections 102, 103, and 112; not section 101.
III
The Court in Mayo did not create a section
101 distinction between diagnostic methods
and therapeutic methods
In Mayo the Court discussed the method at issue in
that case, and concluded that “upholding the patents
would risk disproportionately tying up the use of the
underlying natural laws, inhibiting their use in the
making of further discoveries.” 566 U.S. at 73. The
Court did not hold that every diagnostic method ties up
a natural law, and the Athena panel majority acknowledged that “we agree that claim 9 leaves open to the
public other ways of interrogating the correlation between MuSK autoantibodies and MuSK-related disorders without practicing the claim’s concrete steps.” 915
F.3d at 752.
Athena’s diagnostic method is not a law of nature;
it is a novel man-made method of diagnosis of a neurological disorder. The Athena diagnostic method, a multi-step method performed by a combination of specific
chemical and biological steps, was unknown in the prior
art. The Court in Mayo did not exclude such methods
from eligibility for patenting.
Following is an outline of this court’s inconsistent
rulings between diagnosis and treatment of disease:

128a
A. Methods of diagnosis, held ineligible under section 101
1. In re BRCA1- & BRCA2-Based Hereditary Cancer Test Patent Litigation, 774 F.3d 755 (Fed. Cir.
2014). The claimed invention is a method for screening
for genes linked to inherited breast and ovarian cancer,
by analyzing for certain mutations in the DNA. The
court held the claims ineligible under section 101 as directed to a law of nature, and also held that identifying
genetic mutations is an ineligible abstract idea.
2. Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788
F.3d 1371 (Fed. Cir. 2015). The claimed invention is a
method for detecting paternally-inherited fetal abnormalities by analyzing the blood or serum of a pregnant
female. The court held the claims ineligible under section 101, while recognizing that “detecting cffDNA in
maternal plasma or serum that before was discarded as
waste material is a positive and valuable contribution
to science.” Id. at 1380.
3. Genetic Technologies Ltd. v. Merial L.L.C., 818
F.3d 1369 (Fed. Cir. 2016). The claimed invention is a
method for detecting a coding region of DNA based on
its relationship to non-coding regions, by amplifying
genomic DNA with a primer spanning a non-coding sequence in genetic linkage to an allele to be detected.
The court stated that “the patent claim focuses on a
newly discovered fact about human biology,” id. at
1376, and that this is a law of nature and is ineligible
subject matter under section 101.
4. Cleveland Clinic Foundation v. True Health Diagnostics LLC, 859 F.3d 1352 (Fed. Cir. 2017). The
claimed invention is a method for diagnosing risk of
cardiovascular disease by analyzing for the enzyme
myeloperoxidase (“MPO”). The court held that even

129a
though prior methods for detecting MPO were inferior,
the discovery of how to directly analyze for MPO, and
discovery of the relation to the risk of cardiovascular
disease, although “groundbreaking, ‘even such valuable
contributions can fall short of statutory patentable subject matter.’” Id. at 1363 (quoting Ariosa, 788 F.3d at
1380).
5. Roche Molecular Systems, Inc. v. CEPHEID,
905 F.3d 1363 (Fed. Cir. 2018). The claimed invention is
a method for detecting the pathogenic bacterium Mycobacterium tuberculosis (“MTB”), based on nucleotide
content and a novel method of analysis. The court stated that the method is new, unobvious, and “both faster
and more accurate than the traditional MTB detection
methods,” id. at 1366, but held that the method is ineligible under section 101.
6. Cleveland Clinic Foundation v. True Health Diagnostics LLC, 760 F. App’x 1013 (Fed. Cir. 2019). The
claimed invention is the novel immunoassay to detect
the correlation between blood MPO levels and cardiovascular disease. The court held that the claims are for
a law of nature and ineligible under section 101.
In all of these diagnostic cases the claims were held
ineligible under section 101, whether or not the method
of diagnosis was new and unobvious, and independent
of patentability under sections 102, 103, and 112.
B. Methods of treatment, held eligible under section 101
1. Rapid Litigation Management Ltd. v. CellzDirect, Inc., 827 F.3d 1042 (Fed. Cir. 2016). The claimed
invention is a “method of producing a desired preparation of multi-cryopreserved hepatocytes [liver cells].”
Id. at 1047. The court stated that “the natural ability of

130a
the subject matter to undergo the process does not
make the claim ‘directed to’ that natural ability,” id. at
1049 (emphasis omitted), and “[t]his type of constructive process, carried out by an artisan to achieve ‘a new
and useful end,’ is precisely the type of claim that is eligible for patenting,” id. at 1048 (quoting Alice, 573 U.S.
at 217).
2. Vanda Pharmaceuticals Inc. v. West-Ward
Pharmaceuticals Int’l Ltd., 887 F.3d 1117 (Fed. Cir.
2018). The claimed invention is a method of treating
schizophrenia with the known drug iloperidone, where
the dose is adjusted based on whether the patient is a
“CYP2D6 poor metabolizer.” Id. at 1121. The method
uses genetic testing to determine CYP2D6 metabolism.
The court held that this is “a specific method of treatment for specific patients using a specific compound at
specific doses to achieve a specific outcome,” id. at 1136,
and is eligible under section 101.
3. Natural Alternatives Int’l, Inc. v. Creative Compounds, LLC, 918 F.3d 1338 (Fed. Cir. 2019). The
claimed invention is a method of increasing athletic performance by administering beta-alanine in larger quantities. The court held the method eligible under section
101, although the mechanism was a natural effect.
4. Endo Pharmaceuticals Inc. v. Teva Pharmaceuticals USA, Inc., 919 F.3d 1347 (Fed. Cir. 2019). The
claimed invention is a method of treating patients with
oxymorphone, based on the discovery that patients
with impaired kidney function need less oxymorphone
for pain relief. The court stated that the method was
patent-eligible, for “the claims here are directed to a
treatment method, not a detection method.” Id. at 1356
(emphasis in original).

131a
IV
The amici curiae advise on the consequences
of our rulings1
The major biotech industry organizations advise
that our court’s application of Mayo “has caused great
uncertainty to the industry, and … has called into
doubt innumerable biotech patents.” Biotechnology
Innovation Organization (BIO) Br. at 3. BIO discusses
the inconsistency of our section 101 rulings, and points
out that “[t]he panel decision reflects a troubling divergence in this court’s section 101 jurisprudence between
software and biotech inventions,” explaining that in
software cases the threshold analysis focuses on
whether the claims contain a technical improvement
over the prior art, whereas this aspect is absent from
our biotech analyses. Id. at 9.
The amici discuss the adverse effect of our section
101 rulings on advances in medical diagnosis. Seven
Law Professors state that “diagnostic tests form[] the
basis of 60%–70% of all medical treatment decisions,”
and “[d]iagnostic tests have immense benefits for patient care and greatly reduce associated costs, including
decreasing hospitalization and avoiding unnecessary
treatment.” Profs. Br. at 11 (citing The Value of Diagnostics Innovation, Adoption and Diffusion into
Health Care (July 2005), available at https://dx.adva
med.org/sites/dx.advamed.org/files/resouce/Lewin%20
Value%20of%20Diagnostics%20Report.pdf).

1

Amicus curiae briefs were filed by the Biotechnology Innovation Organization, Pharmaceutical Research and Manufacturers
of America, Croplife International, Wisconsin Alumni Research
Foundation, Seven Law Professors, and Freenome Holdings Inc.
and Achillion Pharmaceuticals, Inc.

132a
The Law Professors state that “[t]he economics of
the R&D and commercialization of innovative diagnostic tests reflect the core economic justification for the
patent system: The marginal cost of making a diagnostic test is relatively low, but the ex ante R&D costs can
be enormous,” stating that the cost of commercializing
a diagnostic test is between $50-$100 million. Id. at 11–
12 (citing Diaceutics Group, Mystery Solved! What is
the Cost to Develop and Launch a Diagnostic? (2013),
available at https://www.diaceutics.com/?expert-insight
=mystery-solved-what-is-the-cost-to-develop-and-launch
-a-diagnostic). The Law Professors state that by
“creat[ing] an unduly restrictive patent eligibility doctrine under § 101, the majority decision and many other
court decisions send the wrong message to innovators
that groundbreaking diagnostic tests born of the biotechnological arts in the modern biopharmaceutical industry are virtually per se unpatentable under § 101.”
Id. at 13.
Amici curiae Freenome Holdings and Achillion
Pharmaceuticals suggest that our jurisprudence contravenes “promot[ing] the Progress of Science and useful Arts.” U.S. Const. art. I, § 8, cl. 8. These amici
point to the judicial duty to construe section 101 to include both inventions and discoveries, and that discovery of a new diagnostic method is within the constitutional purpose.
I repeat that “the public interest is poorly served
by adding disincentive to the development of new diagnostic methods. This is a severe criticism; and when
presented by the entire industry, and stressed by
thoughtful scholars, it warrants judicial attention.”
Athena, 915 F.3d at 762 (Newman, J., dissenting).

133a
The need for en banc action
The judicial responsibility is to provide clear and
consistent law in conformity with statute. Our holdings
on medical diagnostics contravene the admonition that
courts “should not read into the patent laws limitations
and conditions which the legislature has not expressed.” Chakrabarty, 447 U.S. at 308.
The legislative plan is for an incentive system that
supports advances in useful technologies by enabling
innovators to benefit economically. The patent statute
requires that the new knowledge is disclosed to the
public, where it adds to the body of knowledge and, in
turn, may be studied and built upon. No benefit has
been suggested by excluding medical diagnostic methods from the patent incentive system.
This case presents an opportunity for judicial review and judicial remedy. Although diagnostic methods are not the only area in which section 101 jurisprudence warrants attention, Federal Circuit precedent is
ripe for reconsideration specific to diagnostic methods,
to correct our application of the Mayo decision and to
restore the necessary economic incentive. As summarized by Senators Chris Coons and Thom Tillis, cochairs of the Senate Subcommittee that is conducting
hearings on proposed remedial legislation, “courts have
clouded the line to exclude critical medical advances
like life-saving precision medicine and diagnostics,” and
“studies showed that investors familiar with the current lack of clarity invest less in critical research and
development in areas like medical diagnostics.” The
Senators stated that “[e]ven some witnesses advocating against broad reform conceded that there are problems with the current system, particularly in the life
sciences.” Report available at https://www.law360.

134a
com/articles/1171672/what-coons-and-tillis-learned-atpatent-reform-hearings (June 21, 2019).
From my colleagues’ denial of en banc review, I respectfully dissent.

135a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
STOLL, Circuit Judge, with whom WALLACH, Circuit
Judge, joins, dissenting from the denial of the petition
for rehearing en banc.
In a series of cases since the Supreme Court’s decision in Mayo Collaborative Services v. Prometheus Laboratories, Inc., 566 U.S. 66 (2012), we have established
a bright-line rule of ineligibility for all diagnostic
claims. See, e.g., Ariosa Diagnostics, Inc. v. Sequenom,
Inc., 788 F.3d 1371, 1377 (Fed. Cir. 2015) (rejecting a
diagnostic claim because the “only subject matter new
and useful as of the date of the application was the discovery of the presence of cffDNA in maternal plasma
or serum”). This rule as applied to the facts of this case
dictated that the majority panel find the claimed inven-

136a
tion ineligible. But, because this court’s bright-line rule
is based on an over-reaching and flawed test for eligibility, a test that undermines the constitutional rationale for having a patent system—promoting the progress of science and useful arts—the court should take
this opportunity to correct its erroneous rule. So, while
I stand by the panel decision in this case, I write separately to dissent from the denial of en banc rehearing
because the question of the eligibility of diagnostic inventions is exactly the type of exceptionally important
issue that warrants full consideration by this court.
Federal Rule of Appellate Procedure 35 directs us
to order rehearing en banc when “the proceeding involves a question of exceptional importance.” Fed. R.
App. P. 35(a)(2). A question is of exceptional importance if it creates “important systemic consequences
for the development of the law and the administration
of justice.” Watson v. Geren, 587 F.3d 156, 160 (2d Cir.
2009). As Judge Newman and Judge Moore aptly describe, a wholesale bar on patent eligibility for diagnostic claims has far-reaching and long-ranging implications for the development of life-saving diagnostic
methods. The eligibility of life-saving inventions is not
only one of the most important issues of patent law, but
of human health. Thus, the importance of the issue
here mandates that we consider it en banc.
Interpreting Mayo, our prior opinions seem to take
for granted that the Supreme Court has foreclosed all
avenues of patent protection for diagnostic claims. As
Judge Moore points out, we have held every diagnostic
claim in every case before us ineligible. Dissent Op. at
2 (Moore, J.). Our inflexible following of Mayo has created flawed decisions that are inconsistent with the
precepts of Mayo and our patent system as a whole.
The Mayo test was guided by broad-sweeping princi-

137a
ples that are not applicable to every individual diagnostic claim. For example, Mayo emphasizes that patent
eligibility cannot apply to “processes that too broadly
preempt the use of a natural law.” 566 U.S. at 72. Certain diagnostic claims, such as the ones at issue in this
case, are so narrowly tailored that preemption is not a
reasonable concern.
Given the importance of this question, I would urge
the en banc court to take the opportunity to entertain
the thoughtful argument and fully developed record
that such review would provide, and reconsider this
critically important issue. As Congress’s recent interest in § 101 legislation has demonstrated, there are a
variety of stakeholders that consider this issue to be
vitally important. En banc rehearing would not only
permit us to have a more extensive view of the various
considerations underlying Mayo, but it would also allow
us to create judicial doctrine geared toward the practical application of Mayo’s principles. At the very least,
en banc review would help the court develop an articulable standard for its § 101 jurisprudence moving forward.
In my view, by consistently bypassing en banc review of a critical issue that goes to the heart of this
court’s jurisdiction, we are abdicating our responsibility. For this reason, I respectfully dissent.

138a
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2508
ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., MAX-PLANCK-GESELLSCHAFT ZUR
FORDERUNG DER WISSENSCHAFTEN E.V.,
Plaintiffs-Appellants,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAYO
MEDICAL LABORATORIES, MAYO CLINIC,
Defendants-Appellees.
Appeal from the United States District Court for
the District of Massachusetts in No. 1:15-cv-40075-IT,
Judge Indira Talwani.
O’MALLEY, Circuit Judge, dissenting from the denial of
the petition for rehearing en banc.
I agree with all aspects of Judge Moore’s thoughtful dissent. Indeed, I agree with all my dissenting colleagues that our precedent applies the Supreme Court’s
holding in Mayo Collaborative Services v. Prometheus
Laboratories, Inc., 566 U.S. 66 (2012) too broadly. I
write separately, however, because I believe that confusion and disagreements over patent eligibility have
been engendered by the fact that the Supreme Court
has ignored Congress’s direction to the courts to apply
35 U.S.C. sections 101, et seq (“Patent Act”) as written.
Specifically, the Supreme Court has instructed federal
courts to read into Section 101 an “inventive concept”

139a
requirement—a baffling standard that Congress removed when it amended the Patent Act in 1952. I encourage Congress to amend the Patent Act once more
to clarify that it meant what it said in 1952.
I begin with some historical perspective. After
World War II, federal courts were invalidating patents
at breakneck speed. Lawrence Baum, The Federal
Courts and Patent Validity: An Analysis of the Record, 56 J. Patent Office Soc’y 758, 760 tbl. 1 (1974)
(showing that federal appellate courts, on average, invalidated patents at a rate of 77% between 1941–1945),
777 tbl. 5 (showing that the Supreme Court invalidated
patents at a rate higher than 81% from 1921–1973, except during 1953–1964 when the Court did not issue any
decisions on patent validity). As Justice Jackson wrote,
it seemed the only valid patent was “one which [the
Supreme Court] ha[d] not been able to get its hands
on.” Jungersen v. Ostby & Barton Co., 335 U.S. 560,
572 (1949) (Jackson, J., dissenting). This was due, in
large part, to what became known as the “invention requirement”—itself “invented” by the Supreme Court
rather than Congress or the Constitution. Applying
this requirement meant asking whether a patent evidenced “invention.”
Prominent jurists of that time remarked that the
requirement was unworkable. Judge Learned Hand
opined that, under this requirement, “‘invention’ became perhaps the most baffling concept in the whole
catalogue of judicial efforts to provide postulates for
indefinitely varying occasions.” Lyon v. Bausch &
Lomb Optical Co., 224 F.2d 530, 536 (2d Cir. 1955). According to Judge Giles Rich, because inventiveness “is
an unmeasurable quantity having different meanings
for different persons,” the invention requirement “left
every judge practically scott-free to decide this often

140a
controlling factor according to his personal philosophy
of what inventions should be patented.” Giles S. Rich,
The Vague Concept of Invention as Replaced by Sec.
103 of the 1952 Patent Act, 46 J. Patent Office Soc’y 855,
865 (1964) (internal quotations and citations omitted).
If the invention requirement and its criticisms sound
familiar, that is because they are.
Congress attempted to address these criticisms by
amending the Patent Act to replace the ill-defined and
judicially-created invention requirement with the more
workable anticipation and obviousness tests codified in
Sections 102 and 103. Patent Act of 1952, Pub. L. No.
82-593, § 103, 66 Stat. 792, 798 (1952); see, e.g., H.R.
4061, 80th Cong. (1947) (as introduced to the H. Comm.
on the Judiciary, July 1, 1947) (“A BILL To establish a
criterion of invention with respect to patent applications and issued patents[.]”); Nat’l Patent Planning
Comm’n, The American Patent System, June 18, 1943,
H.R. Doc. 78-239, at 10 (“One of the greatest technical
weaknesses of the patent system is the lack of a definitive yardstick as to what is invention.”); id. at 5 (“The
most serious weakness in the present patent system is
the lack of a uniform test or standard for determining
whether the particular contribution of an inventor merits the award of the patent grant. … The difficulty in
applying this statute arises out of the presence of the
words ‘invented’ and ‘discovered.’ Novelty alone is not
sufficient, nor is utility, nor is the final accomplishment.
There must also be present some mysterious ingredient
connoted in the term ‘invented.’”).
But although Congress so amended the Act decades ago, we continue to apply the invention requirement today under a new name—the “inventive concept” requirement. Early cases applying § 101 after
the 1952 amendment, such as Parker v. Flook, 437 U.S.

141a
584 (1978), drew heavily from cases decided under the
“invention” requirement. Compare Funk Bros. Seed
Co. v. Kalo Inoculant Co., 333 U.S. 127, 131 (1948) (concluding that the “aggregation of species” at issue “fell
short of invention” because “[i]f there is to be invention
from such a discovery, it must come from the application of the law of nature to a new and useful end”), with
Flook, 437 U.S. at 591 (“Mackay Radio and Funk Bros.
point to the proper analysis for this case.”). Flook
therefore forged a two-part test, with respect to § 101,
that is seemingly indistinguishable from the one that
had been applied in many “invention” cases over twenty-five years earlier. First, Flook treated the natural
law as part of “the prior art.” Flook, 437 U.S. at 594.
Second, Flook asked whether what remained—apart
from the prior art, i.e. the natural law—constituted
“invention.” Id. (“Respondent’s process is unpatentable under § 101, not because it contains a mathematical
algorithm as one component, but because once that algorithm is assumed to be within the prior art, the application, considered as a whole, contains no patentable
invention.”); see also Diamond v. Diehr, 450 U.S. 175,
204 (1981) (“Under this procedure, the algorithm is
treated for § 101 purposes as though it were a familiar
part of the prior art; the claim is then examined to determine whether it discloses ‘some other inventive concept.’”) (quoting Flook, 437 U.S. at 594)). Against this
back-drop, the search for an inventive concept—now
enshrined in the § 101 inquiry via Mayo—calls back to
the invention requirement that Congress quite deliberately abrogated through the Patent Act of 1952.
In fact, the disagreement here centers on whether
the additional limitations in the claims, either individually or as an ordered combination, satisfy the inventive
concept requirement. Compare Lourie Op. at 4 (“Un-

142a
der Supreme Court precedent, I do not believe that
specific yet purely conventional detection steps impart
eligibility to a claim that otherwise only sets forth what
the Court has held is a natural law.” (internal quotations omitted)), with Moore Op. at 20 (“These [additional] steps are not set out at the ‘high level of generality’
that concerned the Court in Mayo, and they specifically
confine their reach to a specific application of the relationship between anti-MuSK antibodies and MG.”).
Had the Supreme Court not disregarded Congress’s
wishes for a second time, perhaps the outcome in this
case would be different. See Lourie Op. at 2 (“If I could
write on a clean slate, … I would not exclude uses or
detection of natural laws.”). Indeed, claims directed to
uses of natural laws rather than the natural laws themselves would be eligible under § 101 as written. Because the Supreme Court judicially revived the invention requirement and continues to apply it despite express abrogation, I dissent to encourage Congress to
clarify that there should be no such requirement read
into § 101; to clarify that concepts of novelty and “invention” are to be assessed via application of other provisions of the Patent Act Congress designed for that
purpose.

